<html>
<title> - BUILDING A 21ST-CENTURY INFRASTRUCTURE FOR AMERICA: STATE OF AMERICAN AIRPORTS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


 BUILDING A 21ST-CENTURY INFRASTRUCTURE FOR AMERICA: STATE OF AMERICAN 
                                AIRPORTS

=======================================================================

                                (115-3)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 1, 2017

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]           


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation


            
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
24-654 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2443544b64475157504c4148540a474b490a">[email&#160;protected]</a>            
            
            
            
            
            COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                         Columbia
FRANK A. LoBIONDO, New Jersey        JERROLD NADLER, New York
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
DUNCAN HUNTER, California            ELIJAH E. CUMMINGS, Maryland
ERIC A. ``RICK'' CRAWFORD, Arkansas  RICK LARSEN, Washington
LOU BARLETTA, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
BLAKE FARENTHOLD, Texas              GRACE F. NAPOLITANO, California
BOB GIBBS, Ohio                      DANIEL LIPINSKI, Illinois
DANIEL WEBSTER, Florida              STEVE COHEN, Tennessee
JEFF DENHAM, California              ALBIO SIRES, New Jersey
THOMAS MASSIE, Kentucky              JOHN GARAMENDI, California
MARK MEADOWS, North Carolina         HENRY C. ``HANK'' JOHNSON, Jr., 
SCOTT PERRY, Pennsylvania            Georgia
RODNEY DAVIS, Illinois               ANDRE CARSON, Indiana
MARK SANFORD, South Carolina         RICHARD M. NOLAN, Minnesota
ROB WOODALL, Georgia                 DINA TITUS, Nevada
TODD ROKITA, Indiana                 SEAN PATRICK MALONEY, New York
JOHN KATKO, New York                 ELIZABETH H. ESTY, Connecticut, 
BRIAN BABIN, Texas                   Vice Ranking Member
GARRET GRAVES, Louisiana             LOIS FRANKEL, Florida
BARBARA COMSTOCK, Virginia           CHERI BUSTOS, Illinois
DAVID ROUZER, North Carolina         JARED HUFFMAN, California
MIKE BOST, Illinois                  JULIA BROWNLEY, California
RANDY K. WEBER, Sr., Texas           FREDERICA S. WILSON, Florida
DOUG LaMALFA, California             DONALD M. PAYNE, Jr., New Jersey
BRUCE WESTERMAN, Arkansas            ALAN S. LOWENTHAL, California
LLOYD SMUCKER, Pennsylvania          BRENDA L. LAWRENCE, Michigan
PAUL MITCHELL, Michigan              MARK DeSAULNIER, California
JOHN J. FASO, New York
A. DREW FERGUSON IV, Georgia
BRIAN J. MAST, Florida
JASON LEWIS, Minnesota

                                  (ii)

  
                        Subcommittee on Aviation

                FRANK A. LoBIONDO, New Jersey, Chairman

DON YOUNG, Alaska                    RICK LARSEN, Washington
JOHN J. DUNCAN, Jr., Tennessee       EDDIE BERNICE JOHNSON, Texas
SAM GRAVES, Missouri                 DANIEL LIPINSKI, Illinois
DUNCAN HUNTER, California            ANDRE CARSON, Indiana
BLAKE FARENTHOLD, Texas              CHERI BUSTOS, Illinois
BOB GIBBS, Ohio                      ELEANOR HOLMES NORTON, District of 
DANIEL WEBSTER, Florida              Columbia
JEFF DENHAM, California              DINA TITUS, NEVADA
THOMAS MASSIE, Kentucky              SEAN PATRICK MALONEY, New York
MARK MEADOWS, North Carolina         JULIA BROWNLEY, California
SCOTT PERRY, Pennsylvania            DONALD M. PAYNE, Jr., New Jersey
RODNEY DAVIS, Illinois               BRENDA L. LAWRENCE, Michigan
MARK SANFORD, South Carolina         MICHAEL E. CAPUANO, Massachusetts
ROB WOODALL, Georgia                 GRACE F. NAPOLITANO, California
TODD ROKITA, Indiana                 STEVE COHEN, Tennessee
BARBARA COMSTOCK, Virginia           HENRY C. ``HANK'' JOHNSON, Jr., 
DOUG LaMALFA, California             Georgia
BRUCE WESTERMAN, Arkansas            RICHARD M. NOLAN, Minnesota
PAUL MITCHELL, Michigan, Vice Chair  PETER A. DeFAZIO, Oregon (Ex 
JASON LEWIS, Minnesota               Officio)
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                               WITNESSES

Sean Donohue, Chief Executive Officer, Dallas Fort Worth 
  International Airport:

    Testimony....................................................     7
    Prepared statement...........................................    42
    Responses to questions for the record from the following 
      Representatives:

        Hon. Mark Meadows of North Carolina......................    47
        Hon. Rick Larsen of Washington...........................    48
        Hon. Daniel Lipinski of Illinois.........................    50
Lance Lyttle, Managing Director, Seattle-Tacoma International 
  Airport:

    Testimony....................................................     7
    Prepared statement...........................................    53
    Responses to questions for the record from the following 
      Representatives:

        Hon. Mark Meadows of North Carolina......................    66
        Hon. Rick Larsen of Washington...........................    67
        Hon. Daniel Lipinski of Illinois.........................    69
Christina Cassotis, Chief Executive Officer, Allegheny County 
  Airport Authority:

    Testimony....................................................     7
    Prepared statement...........................................    71
    Responses to questions for the record from the following 
      Representatives:

        Hon. Mark Meadows of North Carolina......................    79
        Hon. Daniel Lipinski of Illinois.........................    82
Lew Bleiweis, Executive Director, Greater Asheville Regional 
  Airport Authority:

    Testimony....................................................     7
    Prepared statement...........................................    85
    Responses to questions for the record from the following 
      Representatives:

        Hon. Mark Meadows of North Carolina......................    88
        Hon. Daniel Lipinski of Illinois.........................    90
Todd McNamee, A.A.E., C.A.E., Director of Airports, County of 
  Ventura Department of Airports:

    Testimony....................................................     7
    Prepared statement...........................................    92
    Responses to questions for the record from Hon. Daniel 
      Lipinski, a Representative in Congress from the State of 
      Illinois...................................................    99

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Hon. Sam Graves of Missouri......................................    41

                       SUBMISSIONS FOR THE RECORD

Hon. Rick Larsen, a Representative in Congress from the State of 
  Washington, request to submit the following letters in support 
  of H.R. 1265, ``Investing in America: Rebuilding America's 
  Airport Infrastructure Act'':

    Letter dated March 1, 2017, from the American Association of 
      Airport Executives.........................................   101
    Letter dated March 1, 2017, from the U.S. Travel Association.   103
    Letter dated March 1, 2017, from Airports Council 
      International..............................................   105

                        ADDITIONS TO THE RECORD

Memorandum dated March 8, 2017, from Richard Garcia, Mayor of 
  Edinburg, Texas, and President, Board of Edinburg Economic 
  Development Corporation, et al., to Hon. Frank A. LoBiondo, 
  Chairman, Subcommittee on Aviation of the Committee on 
  Transportation and Infrastructure..............................   106
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


 
 BUILDING A 21ST-CENTURY INFRASTRUCTURE FOR AMERICA: STATE OF AMERICAN 
                                AIRPORTS

                              ----------                              


                        WEDNESDAY, MARCH 1, 2017

                  House of Representatives,
                          Subcommittee on Aviation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 11:02 a.m. in 
room 2167, Rayburn House Office Building, Hon. Frank A. 
LoBiondo (Chairman of the subcommittee) presiding.
    Mr. LoBiondo. Good morning. The subcommittee will come to 
order. I would like to thank you all for being here today. 
Today the Aviation Subcommittee is holding the second of its 
hearings in the 115th Congress in preparation for FAA 
reauthorization.
    As all of you know, the focus of the Transportation and 
Infrastructure Committee this year is building a 21st-century 
infrastructure for America. Today we will be looking at the 
current state of our Nation's airports and their role in the 
21st-century transportation network.
    Airports are the most visible piece of physical 
infrastructure in the air transportation system, and the place 
where all flights begin and end. More than 800 million 
passengers pass through our Nation's 509 commercial service 
airports on U.S. air carriers each year, a figure that is 
projected to grow to 1 billion within 10 years.
    Our Nation is home to 3 of the 10 busiest airports in terms 
of passengers, and 8 of the 10 busiest airports ranked by the 
number of aircraft operations. Hartsfield-Jackson Atlanta 
International Airport tops both categories, earning the title 
of the world's busiest airport by any measure.
    Our Nation's airport infrastructure is not limited to just 
passenger service airports.
    It also includes small general aviation airports that are 
located in every congressional district; I have five in my own 
district. These airports may be small, but they play a vital 
role in connecting remote communities, providing emergency 
services, fostering small business development, and teaching a 
new generation how to fly. No other country supports its 
airport infrastructure to the degree and scope that we do here, 
in the United States of America.
    In partnership with States and municipalities, the Federal 
Government supports airport infrastructure development in a 
number of ways, including airport improvement program grants, 
passenger facility charges, and favorable tax treatment of 
airport bonds. Increasingly, however, there is a perception 
that American airports are falling behind their global 
competitors.
    In a 2016 ranking by the Skytrax World Airport Awards, the 
best performing American airport was Denver International, but 
only in 28th place. According to a 2015 FAA analysis, nine of 
the country's largest airports will be capacity constrained by 
2030, even if all planned improvements are implemented. At the 
other end of the spectrum, available flights to smaller cities 
and rural communities are declining, decreasing connectivity 
and leaving airports with huge maintenance costs for oversized 
facilities.
    Not only must Congress be mindful that our Nation's 
airports need to plan for and be capable of handling future 
passenger growth, but we must remember the needs of smaller 
communities and those impacted by declining air services.
    Our panel today represents a broad range of airports in 
terms of both size and geography. Each airport is also from a 
State or district represented by the Aviation Subcommittee, and 
each witness brings a unique perspective to the state of 
America's airports. I look forward to their testimony on how 
Congress can help facilitate the building of a 21st-century 
aviation infrastructure.
    Before recognizing Mr. Larsen for his remarks, I ask 
unanimous consent that the record of today's hearing remain 
open until such time as our witnesses have provided answers to 
any questions that may be submitted to them in writing, and 
unanimous consent that the record remain open for 15 days for 
additional comments and information submitted by Members or 
witnesses to be included in the record of today's hearing.
    Without objection, so ordered.
    Now I would like to yield to Mr. Larsen.
    Rick, it is all yours.
    Mr. Larsen. Thank you, Chairman LoBiondo, for calling 
today's hearing on the state of U.S. airports. As we confront 
the FAA reauthorization this year, this hearing provides an 
opportunity for us to better understand how Congress can help 
airports satisfy their growing capital needs and keep pace with 
progress abroad.
    First and foremost, I want to welcome a fellow 
Washingtonian as part of today's panel of witnesses. Mr. Lance 
Lyttle is managing director of Sea-Tac, Seattle-Tacoma 
International Airport, which many of my constituents, as well 
as tens of millions of others each year, rely on for air 
travel. I look forward to hearing from him today, in particular 
about the needs and challenges Sea-Tac faces as it undergoes 
its own long-term capital improvement plan to modernize 
facilities to alleviate congestion, which I know is a serious 
issue at Sea-Tac, as well as to improve the customer 
experience.
    Each year, nearly 800 million passengers board aircraft in 
the United States, with approximately 70,000 commercial and GA 
[general aviation] flights taking off daily. FAA's most recent 
forecast projects the number of commercial enplanements in the 
U.S. alone will reach more than 1 billion a year by 2036. So it 
should come as no surprise, then, that the U.S. is home to 4 of 
the world's 10 busiest airports, and, in total, the U.S. has 
over 19,000 airports, ranging from the world's busiest to small 
general aviation airfields across the country. And forecasts of 
increasing air travel may seem encouraging for the U.S. 
economy, but without adequate investment in airports, 
passengers will experience congestion, delays, and the U.S. 
will miss out on economic opportunities.
    The Nation's top airports will continue reaching higher 
levels of congestion, unless airports add new capacity and 
manage overcrowding. For many years, Chairman LoBiondo and I 
have called for the modernization of the air transportation 
system. This includes encouraging immediate implementation of 
NextGen priorities: improved surface operations to reduce time 
spent taxiing between gate and runway, and improved flight 
routes and procedures are just two of the priorities, along 
with added capacity, that will be critical as air travel 
increases.
    But, as the airport manager in Arthur Hailey's 1968 novel 
``Airport'' remarked--a book I am sure we have all read--``We 
have broken the sound barrier, but not the ground barrier.'' 
That was true in 1968; it is true today. Congress has long 
recognized a Federal role with respect to investing in our 
aviation infrastructure, including the airport improvement 
program and authorizing passenger facility charges.
    Unfortunately, airport capital needs significantly exceed 
available funding through these two mechanisms. The FAA 
estimates that, over the next 5 years, airports will need $32.5 
billion for AIP-eligible [Airport Improvement Program] airport 
capital projects alone, amounting to about $6 billion per year. 
These numbers are even more startling when we add in the non-
AIP-eligible projects. The leading airport association 
estimates the airports will need more than $100 billion over 
the next 5 years for all airport capital projects. The math 
says it is about $20 billion a year.
    Congress is falling short, providing $3.35 billion in AIP 
funding annually, and the current PFC [passenger facility 
charge] currently capped at $4.50 generates only about $3 
billion per year. So, even with airports' ability to raise 
revenues through PFCs, there is still a significant gap between 
available funding and the investment needed for critical safety 
and capacity projects. We need to make headway on these funding 
shortfalls in order to make U.S. airports more efficient and 
more competitive.
    So, what I expect to glean from today's hearing is that 
this committee must encourage investment at airports, large and 
small, and keep airport funding in mind in the development of a 
long-term, comprehensive FAA reauthorization bill this year. I 
look forward to hearing from all of our witnesses, but 
especially the one from Sea-Tac, about the status of our 
airport infrastructure and ideas for continued investment now 
and into the future.
    Thank you. I yield back.
    Mr. LoBiondo. All right. Thank you, Mr. Larsen.
    Chairman Shuster?
    Mr. Shuster. I thank Chairman LoBiondo, Ranking Member 
Larsen. Thanks for having this hearing today. Welcome to all of 
our witnesses.
    We talked about a lot of big airports, but nobody has 
mentioned the most important airport in the country, and that 
is the Altoona-Blair County Airport.
    [Laughter.]
    Mr. Shuster. So for those of you that don't know it, it is 
a great little airport. And I mention that because it is my 
favorite airport, number one. But, number two, it is a small, 
rural airport. So some of you may have heard I want to do some 
reforming of the FAA. I would call it transformation. But I 
want to make sure everybody knows that I am not going to forget 
about small airports and medium-sized airports, all the 
airports. They are important to the system, and are an 
important piece of infrastructure that we have got to pay 
attention to.
    Now, the second most important airport is here today, 
represented by Christina Cassotis. I have been practicing. 
Christina hasn't been on the job long--2 years--but just--I 
guess it was--was it last month? Yes, last month Pittsburgh was 
named the Airport of the Year by the Air Transport World 
magazine. So it is a great airport--number two in my heart, but 
still in my heart.
    I appreciate the fact that we are holding these hearings 
because aviation is so vital to this country. And I, for one, 
believe the FAA needs to be reformed significantly, not only 
from the air traffic control system, but the certification 
process that is so important to manufacturing in this country. 
But having these hearings, bringing people from around the 
country together to talk about their piece of the 
infrastructure is incredibly important.
    I can't be more pleased than coming off last night's speech 
by the President. He talked about a lot of things that I agree 
with, but he talked about infrastructure. As I have mentioned 
before, it is the first President that I can look back into 
history that used the word ``infrastructure'' in his inaugural 
address. And, as you know, he flies around in an airplane. Now 
he has got a Government airplane, Government-issue, which I 
think might be a step down for him, but he uses the airspace, 
he knows about the airspace. And I have talked to him on a 
number of occasions about the need to transform aviation--
again, across the spectrum.
    But it is important we have these hearings to educate the 
Members. We have got a couple of new members on the committee, 
but some come to us with a lot of experience in the air. A 
couple of them own their own planes, or fly their own planes, 
or do something with their own planes. So again, I really 
appreciate the opportunity to have you folks here in front of 
us to talk about, again, a critical piece of infrastructure, 
and look forward to working with each and every one of you, and 
all the committee members, as we move forward.
    Thank you, and I yield back.
    Mr. LoBiondo. Thank you, Mr. Shuster. And now I would like 
to recognize Mr. DeFazio.
    Peter, it is all yours.
    Mr. DeFazio. Thank you, Mr. Chairman, for holding this 
hearing. I was the--you know, I am vitally interested in the 
needs of the airports, particularly their unmet needs, their 
projections into the future to provide a better travel 
experience for all Americans, shortened security lines with 
redesign to accommodate new security measures, et cetera.
    But in the numerous conversations I have had, a lot of 
airports are bonded out, they are tapped out, they need a way 
to finance bonds for the investment they need to make. So I am 
pleased today to announce that, along with our colleague, Mr. 
Massie, we have introduced a bill to lift the cap on the 
passenger facility charge.
    I have a long history with this. I was the original 
Democratic sponsor here in the committee. We fenced it, so that 
the abuses of the previous PFC, which had--Congress had 
repealed couldn't happen, which was generating revenues for 
off-airport activities that didn't go directly to benefit those 
who used the system. And there have been no scandals, and it is 
a good system. Those who don't fly, they don't have to pay, it 
is not coming out of the general fund. Those who do fly benefit 
from the improvements, and they pay a little bit for a better 
experience.
    Now, I know that already I can hear the screams from A4A 
[Airlines for America] downtown about how this will cause 
people to just--no one will ever get on an airplane again if 
you raise the PFC $2. Now, it is interesting. My staff did a 
little math. Last year, with bag fees--and you average out 
among every person who flew--$8.50 per passenger for everybody 
who flew last year in bag fees. But that doesn't deter anybody 
from flying.
    Fifty bucks to put your bag in the overhead? Oh, thank you 
very much. I love the experience. What they are really worried 
about is that you might build more gates and expand your 
terminals and we might have some more competition. That is what 
they are really worried about. And it is time to get past this 
and get real and allow the airports to fund. You know, the 
President has said he wants to rebuild our airports, they are 
horrible. They are, in many cases. I talked in particular about 
LaGuardia. But he also had reservations about fees. But what is 
better than a user fee for the users of the system to pay?
    So, I am not going to go into great depths. Already my 
colleague from Washington State has mentioned it. But, you 
know, we can do everything--you know, the chairman and I have 
some agreement over reforms that need to be made. Not the form 
of the reforms, but--at the FAA. But as former Administrator 
Randy Babbitt said, let's do everything we can with NextGen.
    But if you look at LaGuardia, you can't land more than one 
plane on a single runway every 54 seconds. So unless we do 
things to actually enhance the ground capacity of the system to 
move people through the airports, and a better experience more 
quickly to provide more gates at airports, to provide more 
runways, it doesn't matter what you do with putting planes any 
way you want in the sky. They have got to go someplace.
    I mean, gee, you get there and, oh, there is the Greyhound 
bus station that I am going to stumble through. You know, it is 
not a comprehensive way of approaching the problem.
    So, yes, let's do what we need to do to make the FAA better 
with procurement, personnel, and other issues. But let's also 
allow the critical component of the system to grow into a 21st-
century form to accommodate current and future needs of 
passengers.
    With that, I yield back the balance of my time.
    Mr. LoBiondo. Thank you, Mr. DeFazio. At this time I would 
like to recognize Congresswoman Johnson to introduce one of our 
guests.
    Ms. Johnson of Texas. Thank you very much, Mr. Chairman, 
and thanks to you for calling the hearing.
    As we convene this morning to discuss the state of American 
airports, I can think of no better witness to testify than Mr. 
Sean Donohue, the chief executive officer at DFW Airport--that 
is Dallas Fort Worth International Airport.
    Mr. Donohue is a great partner, and I am very appreciative 
of his willingness to testify before the committee today. He 
brings with him more than three decades of experience in the 
airline industry. He has previously served as the chief 
operating officer of Virgin Australia Airlines. And prior to 
that he climbed the ranks of a 25-year career at United 
Airlines, first as an accounting clerk and ending as a senior 
vice president of operations.
    Today we are extremely fortunate to have Mr. Donohue 
oversee all the operations of the greatest airport in the 
country, Dallas Fort Worth International Airport, as CEO. The 
airport--and, you know, Texas always--we should know, we have 
the best.
    The airport itself is a massive complex, sprawled over 
nearly 30 square miles and five terminals. DFW ranks as the 
10th-busiest airport in the world by passenger traffic, and the 
3d-busiest airport in the world by aircraft movement. Last year 
alone, DFW Airport achieved another record by serving more than 
65 million passengers. We are extremely fortunate to have Mr. 
Donohue at the helm to continue DFW's legacy as a premier 
large-hub airport.
    With that, I am proud to introduce Mr. Sean Donohue to the 
committee, with full confidence in his testimony insight today.
    I yield back the balance of my time. But before I do I want 
to say that I truly support the passenger facility fee. We can 
use it. Thank you.
    Mr. LoBiondo. Thank you, Ms. Johnson.
    Our next witnesses are Mr. Lance Lyttle, managing director 
of Seattle-Tacoma International Airport; Ms. Christina 
Cassotis, who is the chief executive officer of the Allegheny 
County Airport Authority; and Mr. Lew Bleiweis, who is the 
executive director of the Greater Asheville Regional Airport 
Authority.
    And now I would like to recognize Ms. Brownley to introduce 
one of our guests.
    Ms. Brownley. Thank you, Mr. Chairman. As the proud 
representative of Ventura County, California, I am very, very 
pleased to introduce my constituent, Todd McNamee. Todd 
currently serves as director of airports for Ventura County, 
where he oversees operations at the Camarillo and Oxnard 
Airports, two of the greatest airports in the country.
    Todd is also a pilot. Todd was elected as secretary-
treasurer of the American Association of Airport Executives for 
2016 through 2017. He is also past president of the Southwest 
chapter of AAAE. Early in his career, Todd worked on unmanned 
aircraft systems for several private-sector companies. Since I 
came to Congress, Todd has been an invaluable resource for me, 
not only on local issues impacting the general aviation 
community, but also on national policy, including unmanned 
aerial systems, airport financing, and FAA policy.
    Todd really understands aviation issues inside and out, and 
I appreciate that he is joining us here today. I am very proud 
to represent him and to introduce him. Thank you, Mr. Chairman.
    Mr. LoBiondo. Thank you, Ms. Brownley.
    I would like to remind all of our witnesses to please try 
to limit their opening remarks to no more than 5 minutes.
    Mr. Donohue, you are recognized for your opening statement.

TESTIMONY OF SEAN DONOHUE, CHIEF EXECUTIVE OFFICER, DALLAS FORT 
 WORTH INTERNATIONAL AIRPORT; LANCE LYTTLE, MANAGING DIRECTOR, 
SEATTLE-TACOMA INTERNATIONAL AIRPORT; CHRISTINA CASSOTIS, CHIEF 
  EXECUTIVE OFFICER, ALLEGHENY COUNTY AIRPORT AUTHORITY; LEW 
   BLEIWEIS, EXECUTIVE DIRECTOR, GREATER ASHEVILLE REGIONAL 
 AIRPORT AUTHORITY; AND TODD MCNAMEE, A.A.E., C.A.E., DIRECTOR 
     OF AIRPORTS, COUNTY OF VENTURA DEPARTMENT OF AIRPORTS

    Mr. Donohue. Thank you, and, Congresswoman Johnson, I just 
want to say thank you for the longstanding support and 
partnership with DFW. We are most grateful.
    Chairman LoBiondo, Chairman Shuster, Ranking Members Larsen 
and DeFazio, and distinguished members of the subcommittee, 
good morning. I would like to also recognize another friend of 
DFW Airport, Congressman Blake Farenthold, who is a great 
supporter, as well.
    On behalf of the nearly 2,000 employees who work for DFW 
Airport, and the more than 50,000 men and women who work for an 
airline, a business, or operational partner, it is my pleasure 
to be here today to testify before you on the state of American 
airports, specifically the large hubs that are at the heart of 
our industry. This hearing is an important step in shaping the 
way forward for our Nation's airports, airlines, and, most 
importantly, passengers.
    There is a saying in our industry: If you have seen one 
airport, you have seen one airport. Each airport is a unique 
entity with its own benefits, challenges, and characteristics. 
As you consider today's testimony, and potentially develop 
plans for greater investment in airports, please keep our needs 
in mind. While some airports need new runways, others need new 
towers or terminals. There is not a one-size-fits-all approach 
to addressing aviation infrastructure.
    As Congresswoman Johnson mentioned, DFW is the third-
largest airport in the world, in terms of operations, number 10 
in terms of passengers. But probably most importantly to the 
region, we deliver $37 billion in annual economic activity to 
the north Texas region. We connect Dallas Fort Worth 
International Airport to 150 cities in the United States and 
nearly 60 business centers around the world. Aviation has truly 
made the world a smaller place. In the 9 hours it takes to 
drive from DFW to El Paso, you can fly across the Atlantic to 
London with time to spare.
    Large-hub airports like DFW, which account for 73 percent 
of total customer traffic in the country, have needs that are 
truly supersized. For example, building and improving 
terminals, a necessity for the long-term success of an airport, 
are not just simple construction projects. They are multiyear 
ventures entailing billions of dollars of costs.
    Airport financing remains the most significant issue we are 
facing today. Airports owned by State or local governments are 
required to be as self-sustaining as possible, and receive 
little or no taxpayer support. To that end, we must operate 
like a business, funding operations from revenue and 
strategically planning funding for major improvement projects 
which are, to say the least, incredibly expensive.
    Airports, capital markets, the airlines, and passengers 
provide funds to help pay for these long-term projects. 
Utilizing a combination of airline fees, the passenger facility 
charge, airport improvement program grants, critical municipal 
bonds, and commercial revenues, airports must cobble together 
enough funding to build the massive infrastructure needed to 
keep our industry moving at peak efficiency.
    But even the healthiest of airports have found their 
revenues stretched to keep up with the ever-growing needs of 
the traveling public in aviation industry. Indeed, as 
Congressman Larsen mentioned, we are looking at about $100 
billion in the next 4 or 5 years in infrastructure needs 
throughout the United States. These are not cosmetic projects 
designed to put a new shiny look on our airports, but the 
necessary developments required to keep up with an ever-growing 
and changing aviation industry.
    Finally, I would be remiss if I did not mention the 
fundamental priority airports place on safety and security when 
it comes to infrastructure. DFW operates on 17,000 acres, an 
area roughly the size of Manhattan. Any new building, runway, 
or even a parking garage can only move ahead when proper 
security investments are made. It is a significant part of any 
discussion in an equally significant investment.
    Thank you for the opportunity to testify today, and I look 
forward to answering any questions you may have.
    Mr. LoBiondo. Thank you, Mr. Donohue. Mr. Lyttle, you are 
recognized for your statement.
    Mr. Lyttle. Thank you, subcommittee Chairman LoBiondo, 
subcommittee Ranking Member Larsen, Chairman Shuster, and 
Ranking Member DeFazio, and members of the subcommittee, for 
your leadership, and for inviting me to testify today. It is an 
honor to be here. I would like to specifically recognize and 
thank Representative Larsen for his leadership and support of 
Washington State.
    My name is Lance Lyttle. I am the managing director, 
Seattle-Tacoma International Airport. My remarks this morning 
are focused on the challenge that we face at Sea-Tac in 
creating the needed facilities to support our rapid growth.
    Two thousand sixteen marked the sixth year in a row of 
record growth at Sea-Tac. We serve 45 million passengers and we 
are now the ninth busiest airport in the U.S. At Sea-Tac we are 
proud of our growth, because it reflects the increasing 
economic vitality and global relevance of the Puget Sound 
region and Washington State.
    Our essential mission as an airport is to avoid being a 
choke point. To achieve this, Sea-Tac is currently investing 
more than $3.2 billion over the next 8 years. Concurrently we 
are updating our 20-year master plan with a forecast that 
indicates Sea-Tac will serve 66 million annual passengers by 
2034. At this point we anticipate our capital expenditures to 
accommodate this growth will cost at least $10 billion, in 
addition to our current capital plan.
    I would like to share with the subcommittee how we approach 
this massive investment challenge, and how we evaluate the four 
available revenue options.
    First is airport net operating income. Per FAA guidelines, 
aeronautical revenues are set to recover cost. And so, 
effectively, all net operating income at Sea-Tac is generated 
from nonaeronautical sources. While this is a critical source 
of revenue, it is not sufficient to meet our capital needs.
    Second is the Federal Airport Improvement Program. While I 
am sure all of today's panelists would welcome as much direct 
Federal investment as possible, the reality is that few of 
these scarce dollars are available, and they are limited to 
uses that do not include some of our biggest terminal 
investment needs.
    Third, the Port of Seattle has limited property taxing 
authority, but it would be highly inequitable to require King 
County taxpayers, including the majority that never use the 
airport, to pay for facilities used by travelers from all over 
the world.
    The fourth option is the passenger facility charge. The 
decision about whether to charge a PFC user fee is truly a 
local decision, and impacts only those passengers that utilize 
the airport facilities. This allows airport governing bodies to 
encourage competition amongst carriers, secure capacity 
increases, and support economic growth through passengers' 
direct investment in local airport infrastructure.
    As public institutions accountable to local voters, 
airports balance the very real need to keep costs low, while 
ensuring that aviation-specific infrastructure meets regional 
demand.
    Unfortunately, the outdated Federal cap on the PFC prevents 
airports like Sea-Tac from setting a rate that makes the most 
sense for our airport. Because our existing capital plan will 
essentially use all Sea-Tac's anticipated PFC collections 
through 2035, and most PFC collections through 2047, there will 
be little available PFC capacity to pay for the billions in 
projects identified in our master plan.
    Without additional PFC authority, our debt service on the 
bonds to fund master plan projects will flow directly into the 
airline rate base, likely driving costs to airlines at Sea-Tac 
to the highest in the Nation. This would make Sea-Tac less 
competitive as a gateway, and put airline service at risk. 
While an uncapped PFC would give us the authority to raise the 
fee, that decision would have to be balanced with the need to 
keep our costs competitive with other U.S. airports, and 
subject to the approval of our local elected officials.
    I should mention that increased investment flexibility also 
allows us to address the greatest challenge facing U.S. 
airports: security. Airports have increasingly become targets, 
and infrastructure development is a key part of the solution.
    Our commissioners and our staff are committed to being the 
most efficient and customer service-focused airport in the 
country, while being a leader in growing responsibly and 
helping our residents benefit from our growth.
    In closing, Sea-Tac International Airport sees the Federal 
Government and Congress as essential partners. By granting us 
local authority on PFCs, greater tools and flexibility on 
addressing community impact, and greater investment in 
security, you will help us once again make America's airports 
the envy of the world.
    Finally, I would like to thank Representatives DeFazio and 
Massie for introducing legislation to uncap the PFC. Your 
leadership is appreciated and essential.
    Thank you for the opportunity to be here today.
    Mr. LoBiondo. Thank you, Mr. Lyttle, for your testimony.
    Ms. Cassotis, you are recognized for your statement.
    Ms. Cassotis. Thank you, Chairman LoBiondo, Ranking Member 
Larsen, Chairman Shuster, Ranking Member DeFazio, and members 
of the committee. It is a pleasure to be here today; thank you 
for inviting me to provide infrastructure needs about the 
medium-sized airports, and the funding challenges that we face.
    The way the airline industry serves Pittsburgh and many 
other medium-sized communities in the U.S. has gone through a 
major transformation. Pittsburgh, Cleveland, Cincinnati, Saint 
Louis, Raleigh-Durham, Nashville, Memphis, and Milwaukee are 
among the airports that used to carry millions of passengers a 
year. And many of those passengers are now gone, because the 
hubs are gone. But our infrastructure remains.
    None of us got to declare bankruptcy. We have been paying 
down the debt on these facilities for more than a decade, and 
our current carriers are stuck paying for oversized space. The 
Pittsburgh terminal, which was designed in size to accommodate 
32 million passengers a year, now accommodates just over 8 
million. We have been good stewards of public money, prudently 
managing finances to prioritize debt repayment, and we have 
done everything we can to stay competitive in a global market.
    And yet each of us is left with a large number of capital 
projects that we have had to defer, and infrastructure needs 
totaling billions. At Pittsburgh International, just in 
deferred maintenance we have over $74 million worth of 
projects. Saint Louis has $87 million, and Cincinnati $80 
million. Our cost structures have radically changed over the 
past two decades, but Federal funding mechanisms remain 
unchanged.
    Medium-sized airports are getting hammered in the current 
funding framework. Small airports are funded at the highest AIP 
levels, large-hub airports get the least, because what they 
don't get in AIP they make up for in PFCs. But we should be in 
the middle, and we are not. We are funded at the same 
discounted levels as the large-hub airports. In order to 
address infrastructure needs at many medium-sized airports, we 
need to modernize and upgrade costly, inefficient, oversized, 
and out-of-date facilities, none of which is a priority in the 
current funding rules.
    We see five areas that need to be addressed.
    First, the significant contribution requirement should be 
eliminated from PFC funding criteria for medium-sized airports. 
That requirement prioritizes capacity enhancement, air safety 
and security, increasing carrier competition, and reducing 
congestion or noise. These are not our issues. It has been 
challenging, if not elusive, for large and medium-hub airports, 
even with airline support, to convince the FAA that preserving 
capacity and infrastructure makes a significant contribution.
    Second, medium-sized airports should not be required to 
take the same AIP haircut as large airports do. Medium-sized 
airports must be grouped differently, because our reality is 
different. In 17 years of Pittsburgh's PFC program, we have 
foregone $95 million in AIP entitlement grants.
    Third, the PFC, which I am happy to hear today, must be 
raised or uncapped. It has not kept pace with inflation, 
leaving us financially challenged. For Pittsburgh, due to the 
legacy airline debt from the abandoned hub, the authority has 
dedicated most of its PFC revenue to reduce debt since 2001.
    Fourth, the FAA must discontinue its arbitrary restriction 
on AIP and PFC-eligible projects. The types of programs that 
qualify for funding should be expanded.
    And lastly, we would like to see regulations reduced. 
Current regulations seek a 30-percent design completion in 
order to leverage Federal money, which is an unnecessary and 
onerous undertaking for cash-strapped medium-sized airports. 
Airports of our size have come a long way on our own, cutting 
costs and sweating our assets by increasing nonaeronautical 
revenue in creative and innovative ways. But we need your help 
to move the needle further.
    Investing our fair share of Federal resources back into 
medium-sized communities is a game-changer for our airports, 
the country's aviation system. Otherwise, we stay stuck in the 
catch-22 we are in today. We need to invest in our facilities 
to keep them cost-competitive, to attract the type of air 
service that allows our communities to grow. But because we 
don't meet the capacity enhancement requirement, our airports 
don't get funded, and our airline partners and we end up paying 
to maintain old, oversized, and underutilized space.
    We have had a lot of recent success in Pittsburgh. But 
Pittsburgh, and airports like us, can do more and must do more 
for our regional economies. By focusing on streamlining 
processes, the Federal Government can ensure that we, as 
medium-sized airports, can streamline our footprints, stay 
competitive, and the communities we serve can prosper.
    Thank you for your time.
    Mr. LoBiondo. Well, thank you very much. Now we will turn 
to Mr. Bleiweis.
    Is your microphone on?
    Mr. Bleiweis. Thank you, Chairman LoBiondo and Ranking 
Member Larsen, and the members of the Committee on 
Transportation and Infrastructure Subcommittee on Aviation. 
Thank you for inviting me to participate in this important 
hearing.
    I am Lew Bleiweis, executive director of the Asheville 
Regional Airport in western North Carolina. We served just over 
826,000 passengers in 2016, which makes it the third straight 
year of record-setting numbers. I am here today representing 
the small and nonhub classifications of the country's 
commercial service airports, including Asheville Regional 
Airport.
    While the small and nonhub airports only account for 11.8 
percent of the national passenger traffic, we make up 89 
percent of the commercial service airports in this country. I 
will briefly touch on items that have an overwhelming impact on 
the smaller airports.
    Based on the Airports Council International, North 
America's biannual infrastructure needs survey that will be 
officially released next week, airports' infrastructure needs 
for 2017 through 2021, adjusted for inflation, is nearly $100 
billion. Small and nonhub airports account for approximately 14 
percent of this total number. Funding for small and nonhub 
airports is critical and, at the same time, limited because AIP 
entitlement grants and PFC user revenue is based on passenger 
enplanements. The smaller the enplanement numbers, the lower 
AIP and PFC funds.
    We all know that the expense of a capital project does not 
vary because of the size of an airport. Let me briefly tell you 
about the major airfield project going on in Asheville. The 
airport consists of a single runway 8,000 feet in length, and 
serving both commercial and general aviation aircraft. The 
original airfield was--is over 50 years old, and it is coming 
to the end of its useful life.
    We had two safety deficiencies that were out of compliance 
with current FAA policies and standards. We presented the 
redevelopment project to the FAA 8 years ago, and it took 5 
years to program and fund the project. Even with that, the FAA 
required us to phase the approximate $79 million project over 4 
years.
    Capital projects for small airports under AIP are 
traditionally funded at 90 percent, with a 10-percent local 
match. Currently, our project is only funded at approximately 
77 percent, leaving Asheville to fund approximately $18 
million. We have been able to increase our fund balance over 
several years to cover the project, but it has been at the 
expense of deferring other capital aviation projects.
    During this same time our parking availability reached 
capacity, and we had to move forward several years earlier than 
anticipated, with the construction of a $21 million parking 
garage. Due to the lack of full funding on the airfield 
redevelopment project, the airport was forced to go into debt 
for the parking garage. A modernized PFC would allow us to 
recoup our costs for the airfield project sooner, and would 
have provided us with more of our own funds to apply towards 
the garage.
    The airlines will tell you they will just pay for it. That 
is not the case at small and nonhub airports like Asheville. I 
am fighting to keep my costs low to maintain service. And if I 
raise my rates too high to cover capital projects like my 
airport airfield project, they will just move to other airports 
with lower costs.
    My story is not dissimilar from the stories of my 
colleagues' small communities across the country. The choices 
we make, in terms of capital projects and the funding 
available, do impact our abilities to truly meet our overall 
infrastructure needs.
    Congress and the industry must work together to find the 
sustainable funding solution for the future. That is why our 
leading airport funding issues this year are removing the 
outdated Federal cap on PFCs and enhancing the AIP.
    Small and nonhub airports have difficulties attracting and 
maintaining air service for the communities. Carriers decide 
which communities to serve, leaving many communities with 
little or no air service. In fact, over the past couple of 
years, approximately 50 small communities have lost commercial 
service--air service.
    During a speech late last month, a recently retired airline 
CEO explained that larger airplanes reduced the fuel cost per 
seat, meaning that smaller planes servicing smaller airports 
are becoming harder to justify the economic feasibility, which 
questions the viability of the smaller airports. All 
communities, but not specifically smaller communities, benefit 
economically from a viable airport.
    In an analysis recently conducted, based on FAA's economic 
impact study on commercial aviation in the United States, small 
and nonhub airports contributed $121 billion economic output, 
supporting 1.1 million jobs. Locally in Asheville, the 
Asheville regional airport provides 1,700 direct, indirect, and 
induced jobs, while providing $556 million of economic output. 
The industry must find a way to keep air service inexpensive 
and available to the majority of the country.
    Lastly, small and nonhub airports, as with all airports, 
are required by the FAA to be as self-sufficient as possible. 
And yet, the FAA overregulates any airport development on any 
parcel of land. These onerous requirements not actually found 
in Federal law trigger extensive Federal environmental analysis 
which unduly delays projects and often causes developers to 
look elsewhere to build their projects. This deprives airports 
of the ability to compete for development opportunities to 
generate nonaeronautical revenues, bogs down FAA staff in 
unnecessary review analysis of project planning, and generates 
inefficiencies without benefits.
    We believe the Federal Government should only impose 
restrictions based on safety concerns, and ensure that fair-
market value is received for nonaeronautical use of the land. 
The FAA bureaucracy does not need to get involved in every 
local use decision at an airport. Congress should encourage and 
mandate the FAA to limit the statutory requirements, so the FAA 
has a role only with respect to issues affecting the safety, 
efficiency, or utility of the airport for Federal facilities.
    Thank you for your leadership on these important issues. I 
look forward to working with you all and this subcommittee to 
move our airports to the 21st century. Thank you.
    Mr. LoBiondo. Thank you for your statement, Mr. Bleiweis.
    Now we will turn to Mr. McNamee for your statement.
    Mr. McNamee. First I would like to thank Congresswoman 
Brownley for the kind introduction. And also, thank you for 
your great work for the country and also for Ventura County.
    Good morning, Chairman LoBiondo, Ranking Member Larsen, 
Chairman Shuster, and Ranking Member DeFazio, and members of 
the subcommittee. Thank you for inviting me to participate in 
today's hearing. It is an honor for me to be with you today.
    Ventura County operates two airports, Camarillo and Oxnard. 
Camarillo is a general aviation reliever airport that has 
between 150,000 and 200,000 takeoffs and landings per year. 
Oxnard is classified as a nonhub commercial service airport. 
However, after losing commercial air service in 2010, it 
functions as a general aviation airport today.
    Investing in general aviation airports and promoting the 
general aviation industry pays big dividends. The Camarillo and 
Oxnard Airports provide $244 million annually in positive 
economic benefit to the local community, and supports over 
1,400 jobs. Overall, general aviation contributes $219 billion 
in total economic activity, and supports 1.1 million jobs. Our 
facilities are critical links for our communities to regional 
and national economies.
    This committee can help general aviation and commercial 
service airports build a 21st-century infrastructure by 
providing them with the resources they need to repair aging 
facilities and advance critical safety, security, and capacity 
projects.
    As you prepare to consider an FAA reauthorization bill, I 
urge you to take two steps that would improve the state of 
America's airports.
    First, increase Federal funding through the airport 
improvement program. AIP is a key source of revenue for all 
sizes of airports. Today airports only receive enough Federal 
funds to cover half of their eligible projects. An AIP increase 
would help airports like ours in Ventura County, where we are 
planning to use Federal funds to rehabilitate and reconstruct 
runways and taxiways at both airports, with an estimated cost 
of $30 million.
    Second, and as my colleagues have mentioned, eliminate the 
outdated Federal cap on local passenger facility charges. 
Eliminating the PFC cap is the easiest way to build critical 
airport infrastructure projects at commercial service airports 
without putting a heavy burden on the Federal budget, and is 
aligned with the administration's plan for infrastructure 
spending.
    I want to thank Ranking Member DeFazio and Congressman 
Massie for introducing legislation earlier today to eliminate 
the cap on local PFCs. We look forward to working with you and 
the committee in support of this important measure.
    Although general aviation airports don't collect PFCs, we 
benefit from commercial service airports that do. As mentioned, 
large airports that collect PFCs get back a large share of 
their AIP entitlements. The FAA then distributes a vast 
majority of those funds to general aviation and small 
commercial service airports like those in Ventura County. 
Eliminating the PFC cap could open the door to focus limited 
AIP funds on smaller airports that need Federal assistance the 
most.
    This committee also has a strong track record of supporting 
the contract tower program. I urge you to continue to protect 
this valuable program, which allows Oxnard and 252 other 
airports to have cost-effective air traffic control services 
and enhance aviation safety, while saving the FAA approximately 
$200 million per year.
    Finally, I would like to thank this committee for 
addressing the challenges related to unmanned aircraft systems. 
Safely integrating UAS into the National Airspace System will 
be a key component of a 21st-century aviation system.
    In Ventura County we operate a small UAS on behalf of the 
airport under the recently enacted FAA part 1 of 7 regulations. 
We hope to be a model example for the rest of the country on 
how to safely integrate and operate small UAS on and around the 
airport.
    Thank you again for inviting me to participate in today's 
hearing. I look forward to answering any questions you may 
have.
    Mr. LoBiondo. Thank you very much. We will now turn to 
Chairman Shuster for any questions he may have.
    Mr. Shuster. Thank you. My line of--I don't think there is 
any debate that we need more investment in our infrastructure. 
The President put an exclamation point on that last night, and 
aviation is no different.
    One of the things, though, sometimes I think we lack in 
this discussion about funding is how do we reform the system. 
How do we make it better so we can build bridges and roads 
faster, so we can deploy those dollars when it comes to 
rebuilding our airports and expanding them?
    I look at the wall there, and there are five people up 
there in the last 30 years that have been involved in reforming 
the FAA. And I don't want to be too critical, because I know 
one may charge the door and take me on, and another one may 
call me, so I got to be careful.
    So I would rather turn it to you folks at the tables there 
today to tell me what--dealing with the FAA--and, Mr. Bleiweis, 
you addressed it directly, so I will let you sit out this one. 
But dealing with the FAA, how do we reform them so that, when 
you are doing those projects, you can get it done faster?
    And I have got--there are billions of dollars out there 
right now in airports, but pipelines, railroad projects that we 
got a Government agency up here that is making it extremely 
difficult to move these projects forward. So can you address--
let's start first with Dallas Fort Worth International Airport, 
and then we will go to my second-favorite airport, Pittsburgh 
International Airport.
    So tell me what we can do to make the FAA more responsive 
to you, get these projects done. To save you money, I would 
assume.
    Mr. Donohue. OK. Thank you, Chairman Shuster. When it comes 
to the FAA, DFW supports reform and modernization. But before I 
comment on that, I think it is critical to talk about the 
safety aspect. And sometimes that does not get enough attention 
as we talk about the FAA. And from all perspectives, airports, 
airlines, the FAA, the controllers, the NTSB, everybody 
involved in the safe operation of the FAA does a great job, and 
we never want to take our eye off that ball. And I know we all 
agree on that.
    In terms of modernization, anything we can do as an 
aviation industry to drive more efficiency, to drive more 
funding certainty DFW would support. And as discussions move 
forward, I think it is just critical that airports are at the 
table. And we can offer a perspective, I think we can offer a 
lot of value. And we would welcome that opportunity.
    Mr. Shuster. And, Ms. Cassotis, can you respond to one 
thing in particular about certainty? How important is certainty 
to your projects?
    Ms. Cassotis. It is as important as certainty is to the 
airlines in the rates and charges. The last thing that the 
airlines want from us is any volatility in their rates and 
charges from one year to the next. And, for us, in funding, 
certainty is that critical, because we can make plans about 
what we need to do in order to better position ourselves to do 
what we are supposed to do for these communities.
    And listening to Sean talking about reform and 
modernization, you know, we are not one of the airport 
categories that would necessarily be the most obvious 
beneficiaries, but we are the spokes in the hub-and-spoke 
systems. And when the hubs get backed up, we are the ones who 
suffer. So we are all in favor of the FAA continuing to do what 
it does well, which is safety oversight, and having the rest of 
the FAA focus on a more streamlined approach to getting work 
done.
    So, yes, incredibly important, thank you.
    Mr. Shuster. And, Mr. McNamee, general aviation airport. 
Again, you have to deal with the FAA when you are doing any 
sort of projects. Is that accurate?
    Mr. McNamee. We do.
    Mr. Shuster. And in your experience, has it been difficult? 
Easy?
    Mr. McNamee. So, you know, in our local region, in the Los 
Angeles Airport District Office we have wonderful staff there. 
But, you know, whether you are doing a project at a general 
aviation airport or at a large hub airport, the time it takes, 
the resources, the manpower, and, in some cases, even the 
funding, it is the same at my airport that it might be at DFW.
    And so, streamlining some of those processes when it comes 
to grant funding would certainly be helpful. A bigger picture 
moving forward with the implementation of NextGen--one thing 
for general aviation airports and smaller commercial service 
airports--or, I guess, nonprimary entitlements--at $150,000 you 
really can't get that much done. And if you look at some of our 
projects, most of those are in the millions.
    And so, frequently, when we are competing for dollars, the 
limited dollars within the FAA, we are having to just basically 
roll over that $150,000 until we can fit in to that limited 
funding to fully fund a much-needed project for us.
    Mr. Shuster. Thank you. My time is almost about to expire. 
I just want to--my mother used to tell me when I point my 
finger at somebody to blame them, if I point at the FAA there 
are three pointing back at me.
    So Congress, I believe, is part of the problem, and it is 
the uncertainty that we--you know, whether it is sequestration, 
whether it is Government shutdowns, whether we do short-term 
extensions--so Congress has to look at itself. And like I said, 
I got five former chairmen up there on the walls looking at me, 
and they were all part of bills that tried to reform FAA, just 
nipped around the edges. As far as I can tell, didn't do 
anything significant.
    So--and I think a big part of that is making sure that, 
when you deploy your dollars, you have a process that is steady 
with certainty. So again, I appreciate you being here, and I 
appreciate you answering our questions and educating us.
    Thanks. I yield back.
    Mr. LoBiondo. Thank you, Mr. Shuster.
    Mr. DeFazio?
    Mr. DeFazio. Thank you, Mr. Chairman. Just to get to the 
core, I think we have some substantial agreement here on 
allowing an enhanced PFC and the needs it would address. But we 
do need to address--you know, I did study economics, but it 
would be useful to have other people counter the argument of 
Airlines for America, which is that there is absolute price 
elasticity. Two dollars, three dollars PFC, no one is going to 
fly any more. Two hundred dollar ticket change, no problem. 
Twenty-five bucks for a bag, no problem. Fifty bucks for a bag 
in the overhead, no problem. Two dollars PFC, no one will fly 
any more.
    Anybody want to kind of address that, refute that? Yes?
    Ms. Cassotis. So I think we--there was a GAO study that 
said that that is really not going to be an issue. And I would 
concur with your comments, that it won't depress demand.
    I don't find that the airlines object to raising the PFC as 
much as they object to not having any control over what we use 
it for. And I think that, in order to move the conversation 
forward, it would be helpful to involve them in some sort of 
consultative process about what we are going to use our money 
for.
    Most of the airlines that I talk to, who walk right out of 
our airport, are desperate to have infrastructure more 
efficient and make more sense. And I am confident that as many 
people would fly out of Pittsburgh in the future as they do 
today, if not more, if we had a better airport with more air 
service that would be possible, because of the locally imposed 
PFC.
    Mr. DeFazio. And, of course, you identified, in particular, 
which the chairman was pointing to in a larger sense, the FAA 
that--the requirements for you to increase your PFC are--just 
don't work for you, for your needs, I mean, because they are a 
criteria----
    Ms. Cassotis. Well, not as it is defined today, correct.
    Mr. DeFazio. Yes.
    Ms. Cassotis. The--what we can use it for, we need that to 
expand.
    Mr. DeFazio. Right.
    Ms. Cassotis. Because we have enough capacity for a whole 
lot of years. That is not our issue. What we don't have is the 
right capacity.
    Mr. DeFazio. Right.
    Ms. Cassotis. And we don't have efficient capacity.
    Mr. DeFazio. Right. Mr. Massie and I accommodated that in 
our bill.
    Ms. Cassotis. Thank you.
    Mr. DeFazio. We moved that criteria. Anybody else want to 
comment on this?
    Mr. Lyttle. Yes.
    Mr. DeFazio. I did try--I did go to A4A and say, ``How 
about if we tier it and they have to show a higher level of 
need to go to a higher PFC, or extraordinary need,'' and the 
answer was no. They just won't talk about it.
    So I would like to think that they would be willing to talk 
about something where they could have a little more input. But 
I think that some of their members are afraid of the potential 
for more competition at certain airports.
    Mr. Lyttle?
    Mr. Lyttle. I think one way that we can view it is that the 
airlines have found a way to offset the cost associated with 
baggage or the other change fees that they have, and so they 
have found a way to offset it.
    So the other way we can look at it is that the airports 
need to do the same thing. So we need to find a way to offset 
the cost associated with the infrastructure that we need to 
keep pace with the growth that's taking place in the industry. 
And that means our method of getting that done is through a 
PFC, uncapping the PFC. So I think that is one way of doing it, 
as well.
    Mr. DeFazio. Does anybody--yes, Mr. Donohue?
    Mr. Donohue. The other perspective I would offer--I mean 
DFW supports a PFC increase for all the reasons my colleagues 
mentioned. But when I look selfishly at DFW--we just finished--
we are about to finish a $3 billion capital program, and we 
probably have another $5 to $10 billion in capital 
requirements, infrastructure requirements, moving forward--and 
the PFC is critical to help us, but it is not the silver 
bullet. I mean it is a balanced solution.
    As an airport, we have got to perform better to generate 
more revenues that we put back into the airport. 
Infrastructure--I mean I am delighted to hear the 
infrastructure discussion going on. Probably I am more 
excited--and when I hear it, I finally hear airports mentioned. 
And previously, when I heard ``infrastructure,'' I didn't hear 
airports. And obviously, I think the airports can add value in 
that discussion, moving forward.
    P3s are an important vehicle. Obviously, we are going to 
continue to hit the bond market. And obviously, the airlines 
are going to continue to participate. So we support the 
increase in the PFCs. We appreciate the bill. But for an 
airport like DFW, it is bigger than just PFCs.
    Mr. DeFazio. Sure.
    Mr. Donohue. We have got to look at a really balanced 
solution.
    Mr. DeFazio. No, I get that, and that is like people who 
say P3s or private money will solve all our infrastructure 
problems. No, there is--a lot of this is public infrastructure 
that cannot generate surplus revenues, and needs Federal 
investment. And we will continue the AIP program with a slight 
reduction under the plan we introduce.
    And I am not aware of any other alternative to help people 
do additional bonding. I mean, you know, the President has 
admitted that, you know, like LaGuardia and other places really 
need the investment. But he said he doesn't like fees. Well, I 
don't know what the alternative is. Someone has got to pay for 
it. I mean, if anyone has an alternative, let me know.
    So--but thank you for the--at least the comprehensive 
overlay.
    Mr. LoBiondo. Thank you, Mr. DeFazio. Is Mr. Rokita here? 
No? Then we go to Mr. Massie.
    Mr. Massie. Thank you, Mr. Chairman. Just one--Mr. Donohue, 
one quick clarification. This is just semantics. We are not 
increasing the PFC. We are giving you the freedom to set--that 
is our intent, to set whatever PFC you want. You can lower it, 
if you like.
    But anyways, what are some of the--I mean we are using 
general terms, ``infrastructure.'' What are some of the 
specific projects? And I would ask Mr. Lyttle and Ms. Cassotis 
that, as well. What are some specific projects that you would 
be doing if you could finance them that aren't being done? And 
what is the implication or impact on customers and airlines?
    Go with you first.
    Mr. Donohue. Well, again, I recognize DFW, given our size, 
we are in a position where we will find a way, one way or the 
other, to fund our infrastructure projects. And again, we would 
prefer a more balanced solution than we have today.
    But when I look at our 45-year-old airport and the fact 
that we have terminals that are that age, and we have a couple 
of runways that are that age, and roads and bridges within the 
airport, I mean we will have to do those projects. We will find 
a way to do those projects. But I think we can do it in a more 
balanced approach than we have in the past.
    Mr. Massie. So roads, bridges, terminals?
    Mr. Donohue. Runways.
    Mr. Massie. Runways.
    Mr. Donohue. Airfield operations. Correct. But again, I--to 
answer your specific question, it is not an issue at DFW that 
we won't do them.
    Mr. Massie. Understood.
    Mr. Donohue. We will find a way of doing them.
    Mr. Massie. Understood.
    Mr. Lyttle?
    Mr. Lyttle. So specific projects: international arrival 
facility, $660 million; north satellite facility expansion, 
$550 million; baggage handling system, $320 million; satellite 
renovation, yet to be determined. And that is just the current 
capital development program.
    In addition, we are doing a master plan. We have not 
finalized that master plan, as yet. But the master plan is 
pointing to the need for an additional 34 gates. And so we are 
looking at an additional, potentially, $10 billion to complete 
that master plan. It could be higher, it could be lower. We 
haven't finalized it, as yet.
    Now, unlike maybe DFW, we have--I agree that PFC is not the 
end all. However, we have less flexibility because of the 
footprint that we have, in terms of generating nonaeronautical 
revenues. And so the PFC--flexibility, as you said, with the 
PFC is extremely important to us so we can--you know, we can 
use the PFC at whatever level we think is reasonable for the 
projects.
    Mr. Massie. And why aren't you funding all that stuff right 
now, with AIP?
    Mr. Lyttle. Pardon?
    Mr. Massie. Why aren't you funding all that right now with 
AIP?
    Mr. Lyttle. So the--most of the----
    Mr. Massie. I suspect I know the answer.
    Mr. Lyttle [continuing]. Eligible are our runways and 
taxiways and, you know, projects. Most of the projects that we 
have in the future are actually gates and terminals. And not 
all of those projects are AIP-eligible. And that is one of the 
major challenges that we have.
    Mr. Massie. Got you.
    Mr. Lyttle. We have finished all of our runway projects for 
the foreseeable future.
    Mr. Massie. Ms. Cassotis?
    Ms. Cassotis. Yes. So we--first of all, I have gates, if 
you need a couple. We are happy to ship them over.
    [Laughter.]
    Ms. Cassotis. Yes, can I--can you pay me for them?
    Mr. Massie. We have got some spare ones at CVG [Cincinnati/
Northern Kentucky International Airport], too.
    Ms. Cassotis. Yes, we are going to work out a deal. We--
right away, we have a deicing pad that needs to be upgraded. 
That is $13 million. We have got snow removal equipment that is 
25 years old that needs to be replaced. We have got escalators, 
moving walkways, a rehab that needs $16 million worth of work.
    But in the long term, what a PFC would allow us to do as 
part of a mix, as my colleagues have said, would--an increase 
in the PFC would allow us to right-size and modernize our 
facility, to be an origin and destination airport. We were 
built as a large connecting hub. So we have an X design. It is 
beautiful, it is brilliant, and I think it is the only one 
outside of Abu Dhabi that is as smart as it is.
    So that means that, when passengers come off an 
international flight and they clear customs, most of those 
passengers usually just go to their gate. Well, if you were 
coming home, you had to go through TSA because you were 
airside, you were on the secure side. So when we became an O&D 
airport, origin and destination, and everybody was coming back 
into just Pittsburgh, they would line up at TSA to take off 
their belts and their shoes to go to the garage. That doesn't 
make sense.
    We have an inadequate Federal inspection services facility 
that needs a major upgrade. Our security checkpoint is too 
small, so we have two--so we have a major renovation that has 
to take place.
    Mr. Massie. So, very quickly, I know you wanted more 
flexibility. Probably flexibility for all of the programs.
    Ms. Cassotis. All of them.
    Mr. Massie. But which gives you more flexibility, PFCs or 
AIP?
    Ms. Cassotis. Neither. We need----
    Mr. Massie. OK.
    Ms. Cassotis. We need reforms to both. I need reforms to 
both, please.
    Mr. Massie. I bet.
    Ms. Cassotis. Our projects aren't--we are not capacity-
enhancing projects.
    Mr. Massie. My goal was to ask everybody, but I am out of 
time, so I will yield back. Thank you.
    Mr. LoBiondo. OK, thank you. I recognize Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    Mr. Lyttle, can you talk--you talked about--in your 
testimony about the four revenue options. You didn't 
discussion--and don't go into detail--about how airports 
negotiate with airlines to contribute to the capital 
facilities.
    But do you have estimates? Since every airport is 
different, are there estimates of what airlines provide in this 
mix? Say for Sea-Tac, as an example.
    Mr. Lyttle. Yes. So we have actually done a financial 
forecast, just based on the preliminary numbers that we have 
for the master plan. Again, we have not selected the preferred 
alternative, as yet. But when we look at the alternative, that 
would be in about the $10 billion range.
    At a $4.50 PFC, if we do not have an increase in the PFC by 
2034, the cost per enplanement to the airlines would increase 
from approximately $10.15 today to $49, $50. And we think that 
would be unacceptable. I know I have heard that the airlines 
will pay, but I don't think they will be willing to pay that 
much at any airport.
    Mr. Larsen. So from $10 estimated to $49 to $50.
    Mr. Lyttle. Yes.
    Mr. Larsen. Under your current capital plan. OK. And so the 
alternative, it is either out of the airline, who presumably 
puts that into their fare----
    Mr. Lyttle. So if we----
    Mr. Larsen. If they increase their fare----
    Mr. Lyttle. Yes. If we do not have additional PFCs, and if 
we use bond, for example, go to the bond market, all of that 
goes into the rates and charges for the airlines.
    Mr. Larsen. Yes, yes, OK. So can you talk a little bit 
about--and Mr. Donohue, as well, and Mr. Lyttle--Mr. Donohue, 
you have--American is largely the big dog at the--at DFW, where 
at Sea-Tac you have Delta and Alaska and United, and others, as 
well. But largely, Alaska and Delta, so some--multiple 
carriers, let's call it. Can you two just briefly talk about 
what that means for operations, and how you have to plan at the 
airport?
    OK, Mr. Lyttle, you go first.
    Mr. Lyttle. OK. It is very interesting, because I think in 
the last--using these negotiations, the primary airline that 
was negotiated with was Alaska Airlines. Now Delta has grown 
significantly at airports. So we are actually currently using 
this agreement--what we call the SLOA agreement--which expires 
at the end of this year. So we are in negotiations right now 
with multiple airlines. But, of course, the big players are 
Alaska and Delta.
    It is very challenging, because we have a gate allocation 
methodology that basically favors an airline that is actually 
growing at the airport. So it favors one airline over the 
other. And the problem is we are constrained. We just do not 
have enough gates. During peak time we cannot accommodate all 
the airlines at the airport. In fact, we are now doing 
hardstand operation, and, as we try to get these CIP [capital 
improvement plan] projects that I just mentioned, which will 
add additional gates, during that time we will have to continue 
doing hardstand operations.
    So, gates are our biggest issue, and that is the biggest 
challenge that we have negotiation with, not just Alaska and 
Delta, but American, Southwest, all the other airlines that we 
have at the airport.
    Mr. Larsen. Yes. Mr. Donohue?
    Mr. Donohue. We are actually in discussions with American 
on the future master plan of the airport, and adding a 
terminal, and adding gates. And because American dominates 
DFW--probably shouldn't use the word ``dominate''--it is the 
largest airline at DFW, they tend to invest in DFW, because it 
is so important to them.
    But I would agree with Mr. Lyttle's point. As we look at 
these infrastructure needs in the future, we are not 
supportive, nor do we want to see the cost per enplanement for 
passengers double or triple as we do these programs, because 
the only solution is the bond market. Because I feel that, 
then, makes us uncompetitive, as a hub, versus other major hubs 
in the U.S.
    So that is why I think it is important that we continue to 
work with the airlines to find the right solution. As I said, 
to find a balanced solution, so that we make the proper 
investments, but we have to pay just critical, critical 
attention to making sure our costs don't get so out of whack 
that it is uncompetitive, either in the U.S. or globally. 
Because, as you know, this is becoming more of a global 
aviation industry.
    Mr. Larsen. Thank you. Thanks. I yield back.
    Mr. LoBiondo. Mr. Rokita?
    Mr. Rokita. Thank you, Chairman. I appreciate you having 
this hearing. I appreciate listening to everyone's testimony.
    Unfortunately, the electronics here at the committee room 
aren't working. The IT is not working well today. I had two 
pictures, Mr. Chairman, I wanted to submit for the record. The 
first one was a picture of the work of my 6-year-old, who has 
turned our basement into airport building. And he found a way 
to take my iPad and go on Google Maps and pick a different 
airport every week and build it in our basement. And just like 
some of the challenges you have, he is running out of space and 
is acquiring more land.
    [Laughter.]
    Mr. Rokita. So I wanted to get that in the record. I know 
he is only 6, but I would like to get him some work when he is 
able, so putting it in early.
    One of the issues that has come across my desk recently--
perhaps a little bit off the target of this hearing--is this 
idea about general aviation access to airports. Of course, 
general aviation pays a gas tax fee, and it--in my opinion, it 
certainly pays for what we use of the system. Of course, 
airports are part of the system.
    I guess first to Mr. Lyttle and Mr. Donohue, do you believe 
general aviation has a right to use your particular airports? 
Yes or no?
    Mr. Donohue. Yes, and they do currently.
    Mr. Rokita. Yes. And Mr. Lyttle, for the record?
    Mr. Lyttle. Yes, but we have limited GA services at the 
airport. But the answer is----
    Mr. Rokita. Yes, I saw that. Let me go there. You have at 
Sea-Tac something called Aircraft Service International Group, 
which is now Signature.
    Mr. Lyttle. Yes.
    Mr. Rokita. And I just checked, and they have something for 
what would be my general aviation airplane--a small, light 
twin--a $15 fee that goes to you, and a $50 FBO [fixed-base 
operator] fee that is waived if I buy 30 gallons. And that is--
the FBO charges that, and I imagine that FBO Signature pays you 
a lease or a rent or something for the space.
    Mr. Lyttle. Mm-hmm.
    Mr. Rokita. Is that correct?
    Mr. Lyttle. Yes.
    Mr. Rokita. So they charge me $50. But if I buy 30 gallons, 
that fee gets waived. But the 100 low-lead fee at Sea-Tac right 
now is $8.43 a gallon, which is more than double--or at least 
double what Ms. Cassotis's airport charges, and what Mr. 
McNamee's airport charges.
    So, my question, I guess, you acknowledge that there is a 
right for GA to use the airport. Is there any way to avoid 
these fees at Sea-Tac? More like a public park, where if you 
paid an admission fee to get in, you can go tie down somewhere 
and not be charged $50, $15, or $8.43 a gallon.
    Mr. Lyttle. That is something I will have to look into. One 
of the big challenges we have at Sea-Tac Airport is--it is not 
just only on the terminal side, but on the air side, as well. 
Unlike----
    Mr. Rokita. What did you say, space? I am sorry.
    Mr. Lyttle. Yes, yes, space. We are really constrained, 
spacewise. Unlike DFW----
    Mr. Rokita. But you acknowledge we have a right to use the 
space.
    Mr. Lyttle. Yes.
    Mr. Rokita. Right? Because we pay into the system. OK.
    Mr. Donohue, same set of questions to you. Let's see, with 
DFW you only charge $5 a gallon, which I find incredible, until 
there is a $75 nonwaivable fee. I don't know if that goes to 
the corporate FBO you have. I don't know, do you have a--is 
that a Government-run thing, or is that a private entity? What 
is that?
    Mr. Donohue. We run our own corporate aviation----
    Mr. Rokita. Got you, got you. So that probably explains a 
lower fuel per gallon fee, but $75 nonwaivable, and then 
something for a landing fee, as well.
    Same question to you, then. Is there any way that I could 
go to DFW and waive these fees, or tie down and not use the FBO 
or anything like that, or have any kind of access that doesn't 
require these fees?
    Mr. Donohue. Well, corporate aviation is a service we 
provide, Congressman, and it is not a priority for us, because 
there are so many GA airports in the surrounding region. And--
--
    Mr. Rokita. But hold on. I just premised this whole 
discussion by asking you an initial question, asking you if I 
had a right--GA had a right to use your airport, and you said 
yes----
    Mr. Donohue. Correct, correct. So----
    Mr. Rokita. OK. So me using another airport isn't the 
question. I have a right to use your airport.
    Mr. Donohue. Correct.
    Mr. Rokita. But not unless we pay all these fees, correct? 
Even though we pay the gas tax.
    Mr. Donohue. That is correct.
    Mr. Rokita. Got you.
    Mr. Donohue. Those are our market--those are the market 
rates, in our opinion.
    Mr. Rokita. That is the market rate? Market assumes 
competition. You don't have two FBOs on the airport, do you?
    Mr. Donohue. Well, when I say competition, I am referring 
to the other general aviation airports in our region.
    Mr. Rokita. Oh, what--OK. But at your airport--I mean a lot 
of airports have more than one FBO, so the record understands 
that, and the other Members understand. You don't, and the one 
FBO you have you, in fact, own. You run for----
    Mr. Donohue. Right.
    Mr. Rokita [continuing]. As part of the entity, or the 
Government. Right?
    So, in the 15 seconds I have remaining, I don't know if Mr. 
McNamee or--wants to respond to this, but a lot of your 
customers are general aviation.
    Mr. McNamee. All of our customers are general aviation. We 
actually have four FBOs at Camarillo alone, and two at Oxnard.
    Mr. Rokita. Do you believe general aviation, your 
customers, have a right to go to the big airports?
    Mr. McNamee. They do. But, as you know, airports like 
Camarillo, they are specifically designated as reliever 
airports, to help minimize the congestion at those larger 
airports.
    Mr. Rokita. Yes.
    Mr. McNamee. And----
    Mr. Rokita. But this isn't a congestion question, it is not 
a safety question. We acknowledge that, I mean, there is a 
space issue, and there is an issue of not having so much 
gallonage and flowage, and all that.
    Mr. McNamee. So, as a general aviation pilot, I enjoy when 
I sometimes fly into those larger airports and are greeted with 
open arms, yes.
    Mr. Rokita. Great, thank you. Thank you, Chairman.
    Mr. LoBiondo. Thank you. I would like to recognize Mr. 
Larsen for a unanimous consent request.
    Mr. Larsen. Thank you, Mr. Chairman. I would ask unanimous 
consent to enter into the record a letter from the American 
Association of Airport Executives, indicating support for the 
DeFazio-Massie bill, and a letter from U.S. Travel Association 
indicating support for the DeFazio-Massie bill.
    Mr. LoBiondo. Without objection, so ordered.

        [The letters referenced by Congressman Larsen are on pages 101-
        104.]

    Mr. LoBiondo. Now we would like to go to Mrs. Bustos.
    Mrs. Bustos. Thank you, Chairman LoBiondo and Ranking 
Member Larsen. I appreciate the opportunity to ask a few 
questions here.
    My congressional district in the northwest part of the 
State of Illinois has three international airports, and more 
than a dozen general aviation facilities. So I certainly 
appreciate all the witnesses here today spending time with us 
and answering some of our questions. I am going to start with 
Mr. Bleiweis.
    You mentioned the economic impact of airports on smaller 
communities. If you could go into a little more detail on that, 
that would be helpful.
    Mr. Bleiweis. Thank you, I am happy to. Airports or 
communities have to generate economic vitality. And one way 
that most companies look for to build up communities is with 
air service, or by being able to bring companies in to those 
communities to generate jobs. So, in Asheville, for example, 
again, 1,700 jobs are based not necessarily at the airport--the 
airport only has 450, 460-some-odd jobs--but it is the 
influence of everything else that seeps in to the community by 
doing so.
    We have been told a number of times when businesses are 
looking to expand or move to western North Carolina, one of the 
first questions they ask is, ``What kind of air service do you 
have?'' and ``What is the ability to get in new air service 
from the airlines?''
    The unfortunate part that we have to deal with, as smaller 
communities and smaller airports, is, again, there is limited 
air service. There are four legacy carriers carrying almost 85 
percent of the traffic in this country. They are looking at 
more of the bigger hubs, they are looking at airports as 
feeders, but they also don't provide a lot of good service to 
those feeders or for those hubs. So it is a limited amount of 
how much capacity an airport will take.
    The growth that we have had in Asheville has to do with the 
ultra-low-cost carriers. They are the ones that are bringing 
our travelers to our communities, but those are also the type 
of airlines that businesses are not looking to use when they 
are growing the community employment base.
    Mrs. Bustos. So, just as a followup to that--and maybe this 
is probably broad, and maybe I am--get myself in trouble for 
asking it this broadly, but what additional resources can 
Congress provide to help smaller airports flourish?
    Mr. Bleiweis. I think, again, looking at the uncapped PFC 
helps the dollars flow from the larger airports down to smaller 
airports to expand their facilities. But also, again, as 
touched on, some of my things with the regulation of FAA, there 
are ways for airports to incentivize airlines to come into the 
communities. But the way that the FAA is looking at those rules 
and procedures limits what we can do.
    There is no reason why an airport shouldn't--if there is--
if they are an economic vitality to that community, they--there 
is no reason why they should not be able to put some of their 
revenue dollars into incentivizing all airlines that want to 
serve and then bring in additional service to those 
communities. And right now we can't do that.
    There are limiting factors when even in our chambers or our 
economic development communities or partners in our small 
communities want to attract airlines. Technically, right now, 
we are not even allowed to sit in on those conversations and 
guide our communities to what service that airport needs or 
what service the community needs. Those are some of the 
restrictions that the FAA should loosen up on, and let us do 
our business as a private enterprise.
    Mrs. Bustos. All right. Thank you very much.
    Mr. Bleiweis. Thank you.
    Mrs. Bustos. Mr. McNamee, I was in your county with 
Congresswoman Brownley last summer, and it is lovely there. I 
want to ask you. You mentioned the Small Community Air Service 
Development Program. In addition to the infrastructure needs 
our airports face, attracting and maintaining commercial air 
service can be a real challenge.
    Can you talk a little bit more about how communities use 
the program, and what additional flexibility you would like to 
see?
    Mr. McNamee. Additional flexibility. So we are--currently 
we have in hand a Small Community Air Service Development Grant 
in the amount of $500,000 at Oxnard Airport. We lost air 
service in 2010. That really was the airlines increasing the 
fares to the point where the Navy--we have a large Navy base 
there in Ventura County, which made up about one-third of our 
customers--stopped using the service. And then, from there, the 
fares got even higher for the local businesses, and the 
business community traveling, and it basically killed the 
service.
    And so, we have been trying to restore air service ever 
since. Even with that grant package in hand, and great local 
community support, including funding--we have got about a $1 
million package--that has not been enough to incentivize some 
of those regional carriers. We don't have historical data to 
our strongest market, which would be the Bay Area. We have 
derived data based on traveling passengers: zip codes, things 
like that. So we know who is traveling out of LAX in Burbank.
    The program is a very good program. You know, it used to be 
funded at a much higher level. I think it is currently at $6 
million a year. More funding would be nice to have for those 
small communities. They can definitely take advantage of it.
    In terms of flexibility, as Lew, my colleague next door 
here, mentioned, you know, we are often--our hands are tied in 
how we can exercise those programs. And so, for instance, we 
have a relatively strong reserve fund in our enterprise fund at 
the airport, but we are not allowed to spend airport money as 
part of that package for the grant. We have to go out and find 
it from outside sources, which, fortunately, we are able to do. 
But not all airports are in that position.
    Mrs. Bustos. All right. Thank you, Mr. McNamee. I have 
exhausted my time. Thanks.
    Mr. LoBiondo. Thank you.
    Mr. Davis?
    Mr. Davis. Thank you, Mr. Chairman. Thank you to our 
panelists.
    One of the issues that has been brought to my attention by 
virtually all of the regional airports in and around my 
district relates to ensuring continued access to air service. 
And in smaller communities, that actually means access to 
pilots. Regional airports in the communities I serve, like 
Bloomington-Normal, Champaign-Urbana, and Springfield, 
Illinois, enable them to connect globally and have significant 
importance to the businesses and institutions in those regions.
    But, unfortunately, according to the U.S. Travel 
Association, two-thirds of States like Illinois have seen 
declines in both the number of flights and the number of routes 
since 2007. And since 2013, nearly 40 small airports across the 
country have lost commercial service all together.
    And since I am not going to massacre your last name, I am 
going to call you Mr. Lew. So, Mr. Lew, as an executive 
director of a regional airport, what ideas and suggestions do 
you have--quickly, because I only have a limited amount of time 
and more questions--what can you do, what are your ideas to 
halt this trend?
    Mr. Bleiweis. I think looking at the regional carriers on 
what they are trying to base--you know, as the small airplanes 
are being phased out of manufacturing and use, they are 
becoming larger airplanes, which makes it difficult to support 
a small community with a 70-, 90-, or a 100-seat airplane, when 
it is really meant for a 35- to a 50-seat airplane.
    We were subject to that this summer. We have a--one of our 
legacy carriers decided to stop flying one of our early morning 
routes out of our airport, and it was blamed on pilot shortage. 
We have no facts, whether that was accurate or not. The flight 
came back in September, and we haven't had an issue yet. But it 
is a serious issue for airports all around the country, of 
whether airlines are really--you know, really have that issue, 
whether it is a pilot shortage, whether it is a pay situation, 
union situation, whatever.
    So we just don't have all the facts and know where it is 
going.
    Mr. Davis. All right. Any ideas? What can we do to ensure 
that we don't lose service, then?
    Mr. Bleiweis. Trying--and again, being able to work with 
your communities, trying to work with airlines to bring in 
different types of services, different airlines--there are 
smaller airlines that are coming into play. The legacies don't 
necessarily want to do it, but there are other types of 
carriers out there to do that. So it is just a matter of, 
again, having FAA loosen up some of the abilities for us to use 
incentive dollars or other type of marketing dollars to be able 
to, you know, be able to work with airlines and bring them in 
to your communities.
    Mr. Davis. All right. My next question is going to be like 
a ``Jeopardy'' game. Whoever hits the button first can get to 
answer this.
    Language in the FAA Authorization Act of 1994 sought to 
limit the diversion of revenues generated at airports. 
Unfortunately, a loophole in that law has been used to get 
around our congressional intent. So, last Congress, during the 
debate of the AIRR Act, I cosponsored an amendment that would 
have ensured that that revenue raised at an airport remain at 
the airport and is used for airport purposes.
    I will open it up. Do you believe ensuring that these taxes 
remain at the airport is fair? And would it help you do a 
better job of investing in your aviation infrastructure if that 
were the case?
    Ms. Cassotis. Yes.
    Mr. McNamee. Yes.
    Mr. Davis. Ms. Cassotis?
    Mr. Bleiweis. Yes.
    Mr. Davis. Yeses?
    Mr. Donohue. Definitely, yes.
    Mr. Davis. Anybody want to care to explain why?
    Ms. Cassotis. We are already struggling to take care of the 
infrastructure needs that we have. If there were any revenue 
diversion--and we are one of the three airports in the United 
States, along with DFW and Denver, where we have an agreement 
with--the ability to pull gas out of the ground. Right? We sit 
on a large tract of land, and we have the ability for revenue 
that a lot of other airports don't have. And we are putting all 
of it towards debt repayment and infrastructure. That is where 
it goes.
    Mr. Davis. So what are some of the expenses that this 
revenue is used for, rather than reinvesting in airport 
infrastructure?
    Ms. Cassotis. Oh, for me, it is about paying down the debt.
    Mr. Davis. OK.
    Ms. Cassotis. That is it.
    Mr. Davis. All right.
    Mr. Donohue. And at DFW we reinvest everything back into 
infrastructure at the airport.
    Mr. Davis. OK. Are there any of you that service 
municipalities that maybe take that money and use it for other 
purposes?
    [No response.]
    Mr. Davis. All right. I yield back the balance of my time. 
Thank you all.
    Mr. LoBiondo. Ms. Norton? You are recognized.
    Ms. Norton. Thank you very much, Mr. Chairman, and I 
appreciate this series of hearings you have been holding. I am 
a new cochair of something called the Quiet Skies Caucus. That 
name may convey the self-evident understanding that airplane 
noise has become a national issue. And it is a bipartisan issue 
here in the Congress. Of course, my own airport is Reagan 
National Airport.
    I also am aware that there are a number of contributing 
factors. For example, we had manufacturers here, and they 
discussed quieter planes just--I believe it was--last week. 
And, of course, there is the controversy over NextGen, or the 
new flight procedures. And then there is early morning and late 
night planes. I would call those the three major causes of the 
concern of Members, from coast to coast, I must tell you, about 
airplane noise.
    I wonder, Mr. Donohue, because I read in your testimony--
and I commend you, because there is a line in your testimony 
that says outboard runways are typically closed from 11 p.m. to 
6 a.m. That is a much more reasonable hour than, for example, 
we have at Reagan National, where as late as 1 a.m. planes can 
go, and before 5 a.m., because you can imagine what that must 
mean in some neighborhoods.
    Did you only--when did you go to 11 p.m. and 6 a.m.? And 
have--has that timeframe had any negative effects on airplane 
operations? Was the FAA involved, how you decided to go to 
those hours?
    Mr. Donohue. OK. Thank you, Congresswoman, for the 
question.
    Just to clarify, we do not have a curfew at DFW Airport. 
What we have is the luxury of seven runways. So the fact----
    Ms. Norton. You don't have a curfew. So 11 p.m. and 6 a.m. 
is because of what?
    Mr. Donohue. That is just an operational decision we have 
made, because----
    Ms. Norton. You have always had that?
    Mr. Donohue. I will have to let you know. I have only been 
at DFW 3 years, but----
    Ms. Norton. I wish you would.
    Mr. Donohue. I will let you know. But we have the 
flexibility, because of seven runways, to use our inboard 
runways for overnight operations, and we just think that is the 
right thing to do, from a community perspective----
    Ms. Norton. Well, does that mean that you do have late-
night flights?
    Mr. Donohue. Absolutely.
    Ms. Norton. And you don't have complaints from your 
community?
    Mr. Donohue. Because we are on a footprint that is about 
17,000 acres, we have about 800,000 operations a year at DFW. 
And I think we had maybe 400 to 500 noise complaints. So we 
average less----
    Ms. Norton. So it is the size of the airport that helps 
you.
    Mr. Donohue. It does. It does. The size and the flexibility 
we have with the runways.
    Ms. Norton. Of course this is a major airport that you 
represent.
    I have one more question on the so-called DBE program, and 
that is the inclusion of minorities and women in the 
construction of and renovation of airports. I think this is 
for--probably best for Mr. Donohue and Mr. Lyttle. This 
committee has only recently reaffirmed in its reauthorization 
of the FAA its commitment to the inclusion of minorities and 
women in this work.
    Now, the inspector general, in his report, cited the 
bundling of major construction and concession contracts to a 
single contractor as a barrier to women and minorities becoming 
a part of airport construction. So I would like to ask you if 
you have had any experience with this approach. That is to say 
bundling. Do you understand how that would almost, per se, 
automatically exclude small business and minority and women-
owned business? And what do you think can be done about it?
    Mr. Donohue. We do not bundle, Congresswoman, at DFW. And 
we have a very, very strong commitment to our minority and 
women-owned partners in the community. Last year, on the 
expenditure or construction side, we had about $200 million to 
minority and women-owned businesses. And on the concessions, or 
revenue side, we had about $150 million.
    So, we have a very strong program, we are committed to it, 
we work with our partners in the community, and we will 
continue to focus on those programs.
    Ms. Norton. Thank you. My goodness.
    Mr. Lyttle?
    Mr. Lyttle. Yes, I think one of the things that we have 
been discussing with--because we have specific challenges in 
Washington State, with I-200----
    Ms. Norton. You have specific challenges?
    Mr. Lyttle. Challenges with I-200----
    Ms. Norton. With DBEs, in particular?
    Mr. Lyttle. Well, if the--if we have a project that has 
grants associated with it, then we can set DBE goals. If not, 
we can't, based on State laws.
    But one of the things we have----
    Ms. Norton. I am sorry, you will have to explain that.
    Mr. Lyttle. There is a State law that we have in Washington 
State called I-200, which prevents us from setting those goals. 
It is specific to the State of Washington.
    Ms. Norton. Could he just complete his answer, Mr. 
Chairman?
    Mr. LoBiondo. Have you completed your answer?
    Mr. Lyttle. No, I am not finished.
    Mr. LoBiondo. OK. Try to wrap it up, please.
    Mr. Lyttle. OK. I will stop there.
    Mr. LoBiondo. Thank you.
    Mr. Lewis?
    Mr. Lewis. Thank you, Mr. Chairman. I would concur with the 
ranking member, Mr. Larsen, that Arthur Hailey's ``Airport,'' a 
1968 novel, was a great read. But the movie in 1970 filmed at 
Minneapolis-St. Paul was even better. So if you don't know by 
now, I represent Minnesota.
    And MSP, which is a great airport, like many of yours, does 
have capital infrastructure needs. They estimate $1.7 billion 
needed over the next 7 years to keep up with operational needs. 
The fees they have collected over the past 4 years--$80 million 
from PFCs, $4 million only in Federal grants--obviously, they 
have other revenue streams. But you start to see the task ahead 
for MSP and the country, and what is needed on infrastructure 
in our airports.
    So, my question on the PFCs--and we will start with Mr. 
Donohue here--so we have raised the cap. Obviously, we are 
going to get more revenue. But one justification has been it 
will promote more competition. Can you tell me, or get more 
specific on how it would, as opposed to the airlines currently 
serving your cities just getting a bigger market share?
    Mr. Donohue. Well, again, while we support the increase in 
PFCs, we have a situation at DFW similar to Minneapolis, 
Congressman, that you have a carrier that probably has--at DFW, 
American has 80 percent-plus of our traffic.
    So, to argue from a DFW perspective that a PFC increase 
would drive more competition at DFW would be difficult to make 
that argument, given just the market situation at our airport.
    Mr. Lewis. Mr. Lyttle?
    Mr. Lyttle. Yes. I think it--well, I know it definitely 
will. We are extremely gate-constrained. We are out of gates. 
We have no more gates. And during peak we just cannot 
accommodate, whether it is domestic or international airlines 
that wants to operate at the airport.
    And so, with the additional funding sources from an 
increase in the PFC, we can build these additional gates, both 
domestic gates and international gates.
    Mr. Lewis. You think it would go to newer----
    Mr. Lyttle. Oh, definitely, without a doubt. We have 
airlines that would like to come to the airport now, but the 
time that they would want to come to the airport they can't, 
because there are no gates available.
    Mr. Lewis. And what about Pittsburgh?
    Ms. Cassotis. We have plenty of gates available, and we 
would welcome anybody who can serve our community. That is not 
our issue. I mean, if anything, it is--we have got 75 gates, 
and 25 of them on any given day are sitting idle. That is 25 
gates that we are not using that are going to be obsolete soon 
and would have to go through--I mean even if we wanted to 
preserve that infrastructure, it wouldn't be useful by the time 
the airlines wanted to use it.
    Mr. Lewis. There does seem to be unanimity of opinion--and 
certainly my view--that--I am kind of a user fee guy anyway, so 
I like this idea, to some degree. But, clearly, more revenue is 
needed for infrastructure. That is why we are here, that is why 
we are holding these hearings.
    But I am wondering if there are other methods of getting at 
some of the revenue. And this one is near and dear to my heart. 
There is a study that shows that the ticket tax, obviously, 
does not apply to baggage now. So, naturally, the flights are 
just more fun than ever. Such fees, if you went back to the old 
model, where it is embedded in the ticket, might raise about 
$264 million, nationwide.
    Now, you know, given our needs, that isn't much. But is it 
worth considering? Anybody?
    Yes, Mr. Bleiweis?
    Mr. Bleiweis. Congressman, I think all funding sources are 
important, depending on where they come from. Increase of the 
PFC does multiple things. But you have got to remember that 
airports, just like airlines, somewhat are limited to 
competition.
    I know when you get a little further out West you have 
further distances between airports. But on the east coast there 
are choices that passengers can make. So by--uncapping a PFC 
provides opportunities for airports to have infrastructure 
dollars. We have to be careful of what we do with those PFC 
dollars, because we can't set those at a rate that would drive 
our--you know, our community to other airports to use those to 
save money.
    Mr. Lewis. Well, what about the ticket tax on ancillary 
charges?
    Mr. Bleiweis. And I think, you know, since the airlines 
have unbundled, I think any way to put money into the trust 
fund, including those, is just additional funding opportunities 
to help support the infrastructure needs to the airports in 
this country.
    Mr. Lewis. Thank you very much. I yield back my time.
    Mr. LoBiondo. OK. Ms. Brownley?
    Ms. Brownley. Thank you, Mr. Chairman. I wanted to shift 
the conversation a little bit towards UAS integration. And 
obviously, UAS integration into our national airspace has 
become a major issue over the last decade.
    I know, Mr. McNamee, in our county we have been--you have 
been undertaking a lot in this area. And if you could, just 
talk a little bit about what you are doing and the progress you 
are making.
    Mr. McNamee. Yes. So it is a dilemma that the FAA has been 
wrestling with, proliferation of UAS. The technology is so good 
and it is so inexpensive, that just about everybody and anybody 
owns a small drone nowadays. And so the concern, of course, is 
operating those around airports, in particular for this panel 
here.
    And so, the FAA has stood up what is called the Drone 
Advisory Committee that is a working committee. They have met 
twice now, and they have some subcommittees working primarily 
on establishing responsible yet reasonable regulations and 
policies.
    And then also trying to define the responsibilities of the 
different levels of Government. For instance, you may not be 
able to expect local law enforcement to enforce a Federal 
aviation regulation. So those are some of the things we are 
dealing with. We have been involved in that conversation in 
Ventura County for a long time.
    Our sheriff operates a UAS to supplement their other 
aviation assets. And out at the airport, again, we want to be a 
model on how to safely integrate those around airports. And we 
have been now, for 6 months or so, operating a small UAS 
simultaneously with general aviation traffic--we are not 
closing the Class Delta airspace to do it--and it is working 
very well.
    Ms. Brownley. Is that with the county sheriffs, or----
    Mr. McNamee. No, that is on behalf of the airport. We are 
using a small UAS now to increase our efficiencies on the 
ground, in terms of facility inspection, perimeter security, 
wildlife monitoring, things like that.
    Ms. Brownley. Very good. Thank you very much. And last 
year, you know, our committee spent a great deal of time 
considering legislation that would have created a private 
corporation to manage our air traffic control system. So could 
you talk a little bit about what you think privatization would 
have on our contract tower program and also on general aviation 
airports?
    Mr. McNamee. Certainly there is a concern for small 
airports. The concern would be that if it is a Government 
corporation, that there may be profit motive, and that smaller 
airports might be in jeopardy, particularly their towers, 
representation on the board, making sure that an airport has a 
seat on the board.
    But really, what is the concern, is that the airlines would 
have a much larger say in how the air transportation system 
works, the network in the sky, and it potentially jeopardizes 
small airports.
    The drafts I have seen seem to provide some good 
protections for small airports, which I very much appreciate.
    Ms. Brownley. Very good, thank you. And one last question 
is do you know the average pilot pay for regional airline 
pilots, nationwide and locally? Do you believe that paying 
entry-level pilots more would or could mitigate the pilot 
shortage?
    Mr. McNamee. It will certainly help. I think what you have 
found--and this is what we have experienced at Oxnard Airport, 
and it was mentioned by one of my colleagues, but the reduction 
in fleet at the regional-size aircraft, and then workforce 
development to generate the number of pilots that we need going 
into the future. You have a large wave of retirements coming, 
based on that mandatory, 65-year age retirement for pilots.
    And so, we do a lot of workforce development locally there, 
in Ventura County. Our flight schools have partnerships with 
some of the regional carriers, to help develop pilots and feed 
that line.
    But certainly pay seems to be one of those issues where you 
normally or traditionally have a feeder system going through 
the regionals into the mainlines. Pilots that now qualify to 
fly for either tend to jump that regional feeder and go right 
to the mainlines, because they can be paid more there.
    Ms. Brownley. Any other solutions that you have for----
    Mr. McNamee. Again, we facilitate and collaborate with our 
local partners in Ventura County. We are now teaching high 
school kids on operating UAS and providing ground school as--
the office of education there at the airport is doing. So 
workforce development efforts to try and increase that number 
of pilots for the future of aviation is something that we hold 
dear to our heart.
    Ms. Brownley. Thank you very much. I yield back the balance 
of my time.
    Mr. LoBiondo. Thank you.
    Mr. Perry?
    Mr. Perry. Thank you, Mr. Chairman. Thanks, panel, for 
being here.
    So I am a little interested in the conversation you all 
were having with Mr. Davis next to me here, in the context of 
PFCs and AIP. Now, each of you, from the looks of it, or sounds 
of it--I am just looking at where you each represent. I am 
thinking--certainly, Mr. Donohue, you have a very different 
experience. I have been to your airport, but I am from around 
south-central Pennsylvania, and we have got Harrisburg 
International, which struggles, and probably--I am thinking we 
could probably fit maybe 6 or 10 of them in your terminal 
footprint, I am not sure, and it includes the runway.
    But that having been said, you know, this conversation 
about PFCs, AIP, and how we fund some of the projects and the 
infrastructure, maintenance, et cetera, that we have, and 
potential changes, I think, you know, our local airport there 
struggles, obviously, to bring in carriers and maintain them. 
Yet people that live in the area don't want to have to travel 
to this area to fly.
    And I am wondering, especially Mr.--is it Bleiweis? Is that 
how you pronounce that? And maybe Mr.--probably Ventura County 
is probably fairly large, too, but maybe--well, Allegheny, that 
is--and Sea-Tac, that is like--that is out of the program for 
us, too. But I am looking for some perspective on a smaller 
airport, how these changes--if you can kind of envision that. 
And maybe it is asking you to stick up for your competition, 
right, to a certain extent, but how they would affect--how 
changes would affect some of our smaller airports and their 
ability to stay in business and provide that service.
    I am trying to get out of the perspective where we 
continually subsidize and fund them, and--which also draws 
money away from the bigger airports that need it, as well. So 
just give me some thoughts on that.
    Mr. Bleiweis. Great question, Congressman. I think allowing 
airports, again, to look at their nonaeronautical land, looking 
at being able to develop and bring in other types of businesses 
that will fund revenue into the airport, will help relieve some 
of the lacking of AIP or the current PFC levels. It is just a 
matter of how much land an airport has. But again----
    Mr. Perry. Are there currently prohibitions?
    Mr. Bleiweis. No, but there are a lot of hurdles, so to 
speak, to be able to develop land at an airport. Whether it is 
federally obligated, or not, you still have to go through the 
FAA process to be able to develop that land and get the 
permission----
    Mr. Perry. And that has nothing to do with, like, the clear 
zone, or anything like that.
    Mr. Bleiweis. Not at all.
    Mr. Perry. That is just an airport----
    Mr. Bleiweis. Not at all. I recently in the last few years 
put a gas station/convenience store on my property. It is 
bringing revenue to the airport. And I had to go through the 
FAA to get permission to do that before I could even have a 
conversation with them about moving the lease forward.
    So just--again, it is not federally obligated land, but yet 
they still dictate how we control it. Understand the safety 
aspects, and----
    Mr. Perry. Sure.
    Mr. Bleiweis [continuing]. They are very important. But 
some of the properties that are not near the airfield or not 
near, you know, anything that has an aeronautical purpose 
should be left up to the airport to run the business like a 
private business, and be able to generate revenue, as we are 
required to do to be self-sufficient as possible.
    Mr. Perry. And I would concur, and maybe we could look at 
that in any modifications we do.
    Ms. Cassotis, do you have any----
    Ms. Cassotis. We have about 3,800 acres of land to be 
developed, and fortunately we have a great relationship with 
Harrisburg, with the ADO. And so we move our projects through 
quickly, but it does take time. And there is quite a bit of 
work to be done to demonstrate that you are at fair market 
value, and that the use is, frankly, concurrent with something 
that the FAA would approve for the land. So anything we can do 
to streamline that process helps.
    Mr. Perry. I mean just skipping around here a little bit to 
a different topic, with a little bit of time left--and Ms. 
Brownley brought it up--I am trying to do some work on the UAS 
industry. We are worried--or maybe ``concerned'' is a better 
word--that, without some of the infrastructure in place, that 
the development and manufacturing of that keeps on being pushed 
out of the country because we are just not up to speed.
    Now, this is probably more an issue for the people doing 
the flying, the traffic management system. But from your 
perspective--she asked you your concerns as facilities 
managers. And, Mr. McNamee, you talked about that a little bit. 
But I would suspect you would support some type of an 
integrated system for all UAS variants? Because, you know, 
everybody wants to fly them, but they want to be the only one 
doing it, and don't let anybody else do it, right?
    But I just wanted to get--if there is any other perspective 
I am missing from a facilities standpoint that you guys would 
have.
    Mr. McNamee. So I will field that one. So, really, you do 
have the Drone Advisory Committee working closely with the FAA, 
and I believe they are going to help provide some solutions. 
You have other great minds in NASA looking to implement 
unmanned traffic management systems. And so you do have UAS of 
all sizes.
    Honestly, now, most of the large UAS, they fly very much 
like a manned aircraft. They file an IFR flight plan, an 
instrument flight plan, and go off and do their work. And there 
just aren't that many of them. It is the proliferation of the 
small guys at low altitude, especially around airports where 
aircraft are arriving and departing, that is of most concern to 
us. And you have got some great minds working to find ways to, 
through policy, create safe zones around airports and 
technology coming online to help with that, with the detect and 
avoid, and things like that.
    Mr. Perry. Thanks, Mr. Chairman. I yield back.
    Mr. LoBiondo. Mr. Payne?
    Mr. Payne. Thank you, Mr. Chairman. Let me see.
    To the panel, I am sure, you know, history, and a long 
history, of discrimination in contracting at airports has been 
obvious, especially in construction and the concessions. 
Airports are asking, you know, Congress to raise the PFC. But 
these funds are not required to meet DOT's DBE requirements.
    Since the PFC funds don't have this requirement, how are we 
to be sure that DBE businesses will have a fair shot at the 
lucrative contracts that will likely spring up from our raising 
of the PFC? Mr. Donohue?
    Mr. Donohue. Well, from a DFW Airport perspective, we have 
policies in place that dictate and provide what we are going to 
do to continue to support our minority and women-owned 
businesses. We set goals every year that our board of directors 
have to approve. We report out to our board of directors on a 
frequent basis on how we are doing in terms of minority and 
women-owned participation. And, as I said before, we have a 
very strong program, and we want to continue to strengthen it.
    But the biggest issue--or, I think, to answer your 
question, it is the oversight of our board of directors.
    Mr. Payne. Mr. Lyttle?
    Mr. Lyttle. So we are setting more and more aggressive DBE 
small business targets. But to answer the question directly, if 
you look at the trend and what we are asking for, more of the 
dollars associated with construction projects, if we are 
successful in getting the PFC cap raised, will be associated 
with PFC versus AIP.
    And you are correct, currently there are no DBE 
requirements associated with the PFC, because it is not Federal 
dollars, it is local dollars that is being collected. And I 
think that is something we should take a look at.
    Mr. Payne. Thank you.
    Ms. Cassotis. So we, like DFW, our board of directors every 
year approves our DBE, WBE, and MBE plans. And we monitor that, 
we do a lot of work in diversity outreach to our community in 
order to get more participation.
    But we have aggressive goals. And on every single project 
we monitor and often exceed them.
    Mr. Bleiweis. Congressman, we also approve and look at our 
goals every year. But with smaller airports, the PFC is 
basically--is combined with Federal AIP dollars. So we are 
pretty much--even though we are not--most of our PFC dollars 
are put into projects that we have used with Federal grants, so 
we would still be obligated to the DBE requirements because it 
is a combination of funding, not just using PFC dollars for 
stand-alone projects.
    Mr. Payne. Let's see. Newark Liberty International Airport 
is in my district, and has some of the highest average ticket 
prices in the country. No doubt this is due in part to the 
constraints on facilities. That is a lack of gates or slots, I 
guess they are called.
    Can the panel speak to how the lack of slots translates to 
higher ticket prices, those of you that have the issue? Would 
you say that raising the PFC could possibly lead to decreases 
in ticket prices, due to more competition?
    Mr. Donohue. From a DFW perspective, we do not have any 
slot constraints. The other competitive dynamic we have at DFW 
is Love Field. And the Wright amendment was just repealed about 
2 years ago, which has created more competition, which has also 
created lower fares. So, from the DFW region perspective, we 
don't have that issue, in terms of slot constraints and what 
they could do to pricing.
    Mr. Lyttle. As I said, one of our major challenges that we 
have at Sea-Tac is gates. And so we have airlines that would 
like to provide service at our airport, but we just can't 
accommodate them, especially during peak, because we do not 
have the gates.
    And so, the answer to your question is yes. I think there 
is a possibility that if we can add these additional gates and 
we have additional airlines, then the prices may very well go 
down.
    Mr. Payne. OK. Well, I guess my time is up, and I yield 
back.
    Mr. LoBiondo. I would like to recognize that--we are going 
to go to Mr. Sanford. But before we do that, Mr. Larsen for a 
unanimous consent request.
    Mr. Larsen. Thank you, Mr. Chairman. I ask unanimous 
consent to enter into the record a letter from Airports Council 
International representing its support for the DeFazio-Massie 
bill.
    Mr. LoBiondo. Without objection, so ordered.

        [The letter referenced by Congressman Larsen is on page 105.]

    Mr. LoBiondo. And you have a couple of questions for the 
record?
    Mr. Larsen. And second, yes, I will be entering two 
questions for the record, one on NextGen for DFW and one for 
Sea-Tac regarding the work it has done on its environmental 
footprint. But I will enter those into the record and expect 
answers back. Thank you.
    Mr. LoBiondo. Mr. Sanford?
    Mr. Sanford. I thank the chairman. And I will be brief in 
deference to my colleague from California. I had come in late 
and, unfortunately, I had another hearing I had to attend. So I 
apologize I wasn't here for the bulk of your testimony. I 
appreciate you all's time.
    You know, I would probably be, at least by way of 
philosophy, on the dissenting view on increasing any tax fee or 
other. And I would just like to explore, just for a little 
bit--for instance, at Dallas Fort Worth International Airport, 
if you look at your alternatives--let's say the fee wasn't 
raised. What would you then do? What would be the next step, in 
terms of where you would look, in terms of capital markets or 
other in supplanting those needs?
    Mr. Donohue. Sure. In terms of DFW, Congressman, if the PFC 
was not raised, as we look at future infrastructure needs, the 
airlines would wind up paying the majority of it through our 
bond issuances, and the airlines pay the debt on those bond 
issuances.
    Now, again, from an airport perspective, we are fortunate 
that nonaeronautical revenues are a strong----
    Mr. Sanford. Can I respectfully--what I would argue is 
ultimately airlines don't pay it. I mean, at the end of the 
day, it is the consumer that pays all this stuff, because the 
cost is not borne by the airline, and it is not borne by the 
local municipality. It is ultimately passed on to the consumer. 
So--but I hear you. Keep going, I am sorry.
    Mr. Donohue. And I understand what you are saying.
    Mr. Sanford. Yes, yes, sure.
    Mr. Donohue. I am just saying the mechanism within the 
airport is they would pay higher fees.
    In terms of our performance from a nonaeronautical 
perspective, where we gain revenues not from the airlines but 
other sources, we would have to step up our performance there, 
because all of those revenues we invest back into the airport.
    As we discussed earlier, I think any discussions around 
infrastructure and any type of opportunities there would afford 
us an opportunity. P3s----
    Mr. Sanford. I guess, again, in just a couple minutes that 
I have, maybe somebody else has an illumination on this front. 
I mean there is no closed system that doesn't have inefficiency 
built into it. And I would guess, what, it is less than 20 
percent of your revenue source? Probably much less than that. 
What is PFC right now for you all?
    Mr. Donohue. PFC at DFW is about $130 million a year.
    Mr. Sanford. And percentage of total would be what?
    Mr. Donohue. Out of $900 million in revenues.
    Mr. Sanford. So it is--brain dead at this point in the 
day--so 5 percent, is that right? One hundred--no, no----
    Mr. Donohue. No, it would be----
    Mr. Sanford. Twenty percent.
    Mr. Donohue [continuing]. Ten to fifteen percent.
    Mr. Sanford. Yes. So it is shy of the 20-percent number.
    So, somehow you are able to navigate the other--for the 
other 80 percent. Again, what are other alternatives to raising 
that fee that might be viable? Maybe something that has been 
done in another country, where they have looked at some other 
creative alternative financing vehicle to getting at the needs 
that you are after without ultimately raising the--you know, 
yet another tax on airlines that is borne by the consumer.
    Is there anybody else out there that has, hey, yes, I heard 
of this, they do this in Australia, or they do this in Canada, 
or they do this in Europe? Is there something else out there?
    Mr. Donohue. Well, from a global perspective, Congressman, 
certainly there are examples of other countries who, from a 
Government perspective, support their aviation industry. I 
don't think you are going down that path, but that happens, 
clearly happens in other parts of the world.
    And again, I think infrastructure, whatever happens from an 
infrastructure perspective moving forward, I think offers us an 
opportunity and--but I am not aware of any other examples that 
U.S. airports have not----
    Mr. Sanford. I guess what I am getting at is doesn't it 
always--I mean it just strikes me that, you know, different--to 
your point, in Pittsburgh different local areas will choose 
enhancements or growth or to be a hub. They will go about 
competition for that. And--because it plays to that local 
region or that local area's advantage. We want to add all kinds 
of different bells and whistles, but we want to pass it on to 
the general flying public though, you know, they may or may not 
go in and out of that airport.
    I mean--and some of this is--it is local development borne 
by the general traveling public. Is that not the case, or you 
would take exception to that?
    Ms. Cassotis. I would take exception to that. I would say 
that the----
    Mr. Sanford. I am sure you would.
    Ms. Cassotis. Yes, because the people that are paying that 
PFC or contributing to the program are people coming into and 
out of Pittsburgh. They are not connecting. We don't have a 
choice. The airlines made that choice. And it was the right 
choice for their business model.
    But, you know, I think that the people who----
    Mr. Sanford. I will be rude and cut you off, just because I 
don't want to--or could she finish the question?
    Mr. LoBiondo. Well, I don't want to cut off in the middle, 
but we----
    Mr. Sanford. Yes. In fairness to my colleague----
    Mr. LoBiondo. The gentleman----
    Mr. Sanford. Thank you very much for your time.
    Mr. LoBiondo. The gentleman from California is recognized.
    Mr. LaMalfa. Well, thank you, Mr. Chairman. My apologies 
for another committee commitment earlier, too. So I am pleased 
to be able to take part.
    Mr. McNamee, I am from the northern part of the State. We 
have--two of our main hub airports are Chico and Redding, and 
so we probably face similar circumstances to smaller to mid-
sized airports with keeping passenger service, as well. So 
Redding has been doing OK. They have managed to maintain 
lately. Chico has been without commercial service since August 
of 2014, even though they had 16,000 boardings in that most 
recent year.
    So, I guess what I am getting at is what more--you know, 
you have worked with Oxnard there with trying to get that back 
in place, as well. And so, with the access to the small 
community air surface grant program, the commercial service has 
still eluded you in Oxnard. So what kind of strategies could--
do you apply to trying to get that service back? I mean is all 
the--is it really the way the airport operates, the 
improvements to the airport, or does it just flat come down to 
the economics and passenger convenience? Do passengers want to 
buy the tickets there----
    Mr. McNamee. No, it is----
    Mr. LaMalfa. What kind of things are really the most 
helpful to get that back in place?
    Mr. McNamee. Thank you, Congressman. So at Oxnard we are 
uniquely situated, just under 60 miles from LAX and from 
Burbank and from Santa Barbara to the north.
    Mr. LaMalfa. How far is Santa Barbara?
    Mr. McNamee. About 50 miles, 46 miles, I think, from 
Oxnard. Ventura County is a county of approximately 1 million 
people. I would say about 600,000 of those folks should be 
using Oxnard Airport. It is a smaller runway, it is 5,500 feet 
for landing, and only 100 feet wide. So we are not looking to 
bring mainline carrier-size aircraft. So we are really focused 
on the regional fleet. And the regional fleet is retiring more 
aircraft than they are bringing in new aircraft.
    And so, it is difficult to find an airline with aircraft 
that are available to serve new routes, particularly ones that 
are not proven--such as Oxnard--to the Bay Area, which, based 
on data, on market data, shows to be our strongest market if 
you combine San Jose, Oakland, and San Francisco.
    Mr. LaMalfa. Let me ask on that. Is it the newer type of 
commuter jets are having a bigger challenge than, say, the 
turbo props from before? Is that an aspect that you were just--
--
    Mr. McNamee. Most of your regional carriers are now 
retiring the twin engine turbo props, which are what used to 
serve Oxnard. And the 50-seat regional jets are less efficient. 
So, as fuel prices go up, they tend to use those less.
    And, frankly, when you are feeding in to a major hub 
airport--say, San Francisco--when you have to occupy a gate 
with a 50-passenger jet versus a 200-passenger jet, it just 
doesn't work as well for that airport. And so Oxnard is open 
for 70- and 90-seat-sized aircraft. We could accommodate that. 
But again, the airlines are risk averse, and so they are very 
careful where they put the limited number of aircraft they have 
available into which markets. So it has been a real challenge 
for us.
    Mr. LaMalfa. OK. So that--without that service, you must be 
having a very difficult time maintaining the facilities at a 
position to----
    Mr. McNamee. So, luckily, we operate a system of two 
airports in Ventura County, and so we are able to move funds 
from Camarillo Airport, where we have a large business park, as 
well--and the business park alone generates about 35 percent of 
our revenue for the two airports. And so we do have the money 
to meet local match on Federal grants for those infrastructure 
projects needed at both airports.
    And then we do have money in the bank when we do those 
projects that are noneligible to enhance the facility.
    Mr. LaMalfa. The airport improvement program can be quite 
helpful for smaller airports like that. But the $150,000-per-
year cap, how much of a hindrance is that, especially if there 
is more revenue available to spread around? How important is 
that cap in hindering what you might do to become more----
    Mr. McNamee. So, if you were to look at some of the 
documents I submitted, and in particular to the grants that 
have been awarded to Ventura County, we have rolled over that 
$150,000 for 2 years at Camarillo and at least 1 year at 
Oxnard, and probably another year coming. Because, frankly, it 
is just not enough money to do a meaningful project. And----
    Mr. LaMalfa. They at least allow you to roll it over and 
accrue it, then, though.
    Mr. McNamee. We do. And the biggest problem is competing 
with other airports in the region for the limited AIP funding 
that is there. So we actually stagger some of our projects to 
fit in--you know, we had a big push with the FAA and the runway 
safety areas in 2015. That gobbled up tens of millions of 
dollars in our region. And so those turned out to be rather 
lean years for Camarillo and Oxnard.
    As we get past that now, we have a substantial project this 
year with some new underground infrastructure and taxi lanes, 
but then we have got major runway rehabilitations coming for 
both airports. And I think that is something you are going to 
see at a lot of airports that--our older facilities, where it 
is just that cycle. The runways are at the end of their useful 
life. So I think in small general aviation and small commercial 
service airports you are going to see more and more runway 
reconstruction coming in the near years.
    Mr. LaMalfa. So the cap is an issue. Yes or no?
    Mr. McNamee. It is.
    Mr. LaMalfa. OK.
    Mr. McNamee. Short answer is yes, it is an issue.
    Mr. LaMalfa. OK, thank you. Time is up. Thank you, Mr. 
Chairman.
    Mr. LoBiondo. Thank you. I have one question for anyone on 
the panel.
    Many airport safety research programs are conducted at the 
FAA's flagship technical center, which is in my district. Are 
there any safety issues at our airports or in the National 
Airspace System that you can think of that the committee should 
be aware of? And, if so, how are they being addressed by the 
aviation community and the FAA?
    This is for anybody who may choose to take it.
    [No response.]
    Mr. LoBiondo. They are all jumping up at once.
    Mr. Bleiweis. Chairman, I think the FAA does a tremendous 
job with the safety side of aviation. And I am not aware of any 
safety issues that are not being addressed appropriately.
    Mr. LoBiondo. Everybody else feels--yes, sir?
    Mr. McNamee. Certainly on the general aviation side of 
things, I think you are finding the certification process for 
general aviation aircraft, avionics, things like that, 
streamlining that process while still maintaining a level of 
safety, I think, is very important for general aviation and its 
future.
    Mr. LoBiondo. Yes, that is high up on our list to address 
with this reauthorization.
    Mr. Donohue. I would just say, Chairman, that the FAA 
continues to do an excellent job, from a safety perspective. 
I--you know, having worked overseas, we do have the safest 
aviation system in the world. No doubt about it. But, most 
importantly, I think we all agree that we are not complacent 
about that, and we know we can continue to do better, and 
invest in better use of technology.
    But they are a very good partner, from a safety 
perspective.
    Mr. LoBiondo. OK. I would like to thank our witnesses very 
much. I think this was very helpful for us. We appreciate your 
time and energy and your contribution to our effort here. And 
the subcommittee stands adjourned.
    [Whereupon, at 1:05 p.m., the subcommittee was adjourned.]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                       [all]
    
                                    
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
